IN THE MISSOURI COURT OF
APPEALS
WESTERN DISTRICT
VICTORIA L. FRAWLEY,
)
Respondent,)
)

v.

) WD82442
)

MATTHEW J. FRAWLEY,)
Filed:
February 11, 2020
Appellant.)
Appeal from the Circuit Court of Platte
County
The Honorable W. Ann Hansbrough, Judge
Before Division Three:
Alok Ahuja, P. J., and Anthony
Rex Gabbert and Thomas N.
Chapman, JJ.
33

In 2013, the Circuit Court of Platte County
entered a judgment dissolving the marriage of
Matthew J. Frawley (“Father”) and Victoria L.
Frawley (“Mother”). The dissolution decree
awarded Mother sole legal and sole physical
custody of the couple’s two children, and
ordered Father to pay $505 per month in child
support.
Father filed a motion to modify the child
custody and child support provisions of the
decree. Mother filed a counter-motion seeking
to increase Father’s child support obligation,
and a motion to hold Father in contempt for
failing to satisfy his existing support
obligations. After a bench trial the circuit court
declined to modify the existing custody
arrangement, but altered the visitation
provisions of the original decree. The circuit
court increased Father’s child support
obligation to $554 per month. The circuit court
held Father in contempt for failing to pay his
share of the children’s previously incurred
extracurricular and unreimbursed medical
expenses. It also awarded Mother $10,000 in
attorney’s fees, and ordered

34

Father to pay two'thirds of the fees of the
Guardian ad Litem.
Father appeals, asserting nine Points. We
reject eight of his claims. We find, however,
that. the circuit court erred in calculating
Father’s modified child support obligation, by
failing to give him credit for another child over
whom he has primary physical custody. We
accordingly reverse the child support provisions
of the modification judgment, and remand for
further proceedings concerning Mother’s
motion to modify child support. In all other
respects, the judgment is affirmed.
Background
Father and Mother were married in 2008. They
have two children together, both boys, who are
currently 8 and 10 years old.
On March 7, 2013, the Circuit Court of Platte
County entered a judgment dissolving the
The dissolution decree
parties’ marriage,
awarded Mother sole legal and sole physical
custody of the couple’s two sons. The court did
so in consideration of Father’s “psychological
problems and [his] refusal to address said
problems properly through therapy and/or
35

medication.”
The decree granted Mother
discretion to allow Father “either unsupervised
or supervised visitation” “in light of Father’s
psychological difficulties,” at “all reasonable
times and places” as Mother determined.1 The
circuit court also ordered Father to pay $505
per month in child support, and ordered that
the parties equally share health care costs for
the children that were not otherwise covered by
Mother’s medical insurance, and the costs of the
children’s extracurricular activities.

1 We question the validity of the parenting plan in
the circuit court’s original dissolution judgment, given its
vagueness concerning Father’s visitation rights, and the
virtually unfettered discretion given to Mother to grant or
withhold visitation. See, e.g., Clark v. Clark, 568 S.W.3d
920, 923 (Mo. App. S.D. 2019) (reversing provisions of
dissolution decree which delegated authority to a third
party to determine when and how mother could exercise
visitation); Kamler v. Kamler, 213 S.W.3d 185, 188-89
(Mo. App. E.D. 2007) (reversing dissolution decree which
granted father supervised visitation only “at such times
approved by the mother,” on the grounds that it was
“vague and unenforceable,” and in violation of §
452.400.1(1), RSMo, which required “an order specifically
detailing the visitation rights of the parent without
physical custody rights”). Father did not appeal the
original dissolution decree, however, and the validity of
its visitation provisions is not presently before us.
36

On June 10, 2016, Father filed a motion to
modify the child custody and child support
provisions of the original decree. He argued
that, in light of a substantial and continuing
change of circumstances since entry of the
original decree, the court should order that
Mother and Father exercise joint legal and joint
physical custody of their children. He also
argued that, as a result of this changed custody
arrangement, his child support obligation
should be modified and reduced.
On July 1, 2016, Mother filed a counter-motion
to modify Father’s child support obligation,
arguing that his support obligation should be
increased because Father has “obtained a full­
time job and is making significantly more
money” than at the time of the original decree.
On the same day, Mother also filed a motion
asking the court to order that Father undergo a
psychological and physical examination.
At Mother’s request, the circuit court appointed
a Guardian ad Litem to represent the interests
of the children. The circuit court also ordered
that Father undergo a psychological and
parenting examination with Dr. Aileen P.
Utley.
37

On December 29, 2016, Mother filed an
amended motion to modify, which added an
allegation that Father had “not fulfilled his
child support obligation” under the existing
dissolution decree. Mother filed a motion to
hold Father in contempt based on the same
contentions in January 2017.
On August 3, 2017, the court granted Father’s
second attorney’s motion to withdraw, over
Father’s objection. From that point forward,
Father (who is himself a lawyer) proceeded pro
se. Father has also represented himself in this
appeal.
The circuit court heard evidence on the parties’
respective motions to modify and for contempt
on six days between December 2017 and
November 2018. The court entered its final
modification judgment on January 3, 2019. The
modification judgment found that:
Since the date of the Judgment and
Decree for Dissolution of Marriage, there
have been changed circumstances so
substantial and continuing as to make the
terms of said Judgment and Decree for
Dissolution of Marriage unreasonable in
regard to child support, custody and
38

Parenting Time. The continuing and
substantial
changed
circumstances
included but are not limited to the
following:
a.

[Father] has relocated his
residence from the Kansas City
Metropolitan Area to Jefferson City,
Missouri!
b.

[Father] has engaged in a course
of behavior which would
endanger the children’s physical health or
impair their emotional development if
[Father] engages in unsupervised contact
with the children, to wit:
[Father] uses a
medication which two
qualified
medical professionals have, stated causes
increased psychosis in
1.

[Father];
[Father] fails to have
insight on his own mental
health condition and fails to
follow proper treatment
protocol; and

ii.

39

iii.
[Father] fails to share
his prior medical records with
his current treating medical
professional resulting in his
symptoms not being properly
managed.
[Father] has engaged in [a]
course of behavior during this
litigation that shows a lack of stability in
his mental health including but not limited
to erratic filing of motions during the
course of trial, [and] threats both direct
and indirect against this Court, Counsel
for [Mother], and the Guardian ad Litem.
c.

d.

[Father] has obtained new
employment and as a result
that the application of the Missouri Child Support
Guidelines and criteria set forth in Supreme Court
Rule 88.01 would result in a change of the existing
child support in an amount of 20 percent or more.
The modification judgment continued to give Mother
sole legal and sole physical custody of the children.
As opposed to the original decree which gave Mother
sole discretion over Father’s visitation rights,
however, the modification judgment specified that
Father would have solely supervised visitation,
based on the court’s conclusion that “Unsupervised
Parenting Time with [Father] would endanger the
40

children’s physical health or impair their emotional
development.” The parenting plan incorporated into
the modification judgment detailed when and where
Father was entitled to exercise his parenting time,
including weekly visitation and a holiday schedule.
The circuit court also modified Father’s child
support obligation, increasing it to $554 per
month. The court found Father in contempt for
failing to pay $6,352.03 as his share of the
children’s past extracurricular and uninsured
medical expenses, and ordered him to purge
this contempt by paying an additional $200 per
month until the arrearage was satisfied. The
circuit court awarded the Guardian ad Litem
$10,959.62 in fees, and ordered Father to pay
two-thirds of those fees, or $7,306.34.
The court also awarded Mother $10,000 in
attorney’s fees.
Father appeals, raising nine claims of
error.2

2 Mother filed a motion to dismiss Father’s appeal
based on his failure to comply with the procedural
requirements of Rule 84.04 in his amended appellant’s
brief. Pro se parties are subject to the same procedural
rules as represented litigants. Johnson v.
41

Standard of Review
On review of a modification judgment, as with
any other court-tried case, we must “affirm the
circuit court’s judgment unless it is
unsupported by substantial evidence, it is
against the weight of the evidence, or it
erroneously declares or applies the law.”
Querry v. Querry, 382 S.W.3d 922, 925-26 (Mo.
App. W.D. 2012) (citing Murphy v. Carron, 536
S.W.2d 30, 32 (Mo. 1976)). “We accept all
reasonable inferences and evidence favorable to
the [modification] order and disregard all
contrary inferences.” Kunce u. Kunce, 459
S.W.3d 443, 446 (Mo. App. W.D. 2015) (citation
and internal quotation marks omitted). We also
defer to the circuit court’s credibility
judgments, since “[t]he trial court may believe
Mo. Dep’t of Corrs., 534 S.W.3d 869, 871 (Mo. App. W.D.
2017). While compliance with Rule 84.04 is mandatory,
Franklin v. Ventura, 32 S.W.3d 801, 803 (Mo. App. W.D.
2000), dismissing an appeal for failing to comply with
Rule 84.04 is within this Court’s discretion. State v.
McDaniel, 236 S.W.3d 127, 132 (Mo. App. S.D. 2007). We
prefer wherever possible to dispose of a case on the
merits. Morris v. Wallach, 440 S.W.3d 571, 575 n.4 (Mo.
App.
E.D. 2014). Although Father’s brief is procedurally
deficient in some respects, we are able to discern his
arguments, and will address those arguments on the
merits. Mother’s motion to dismiss is denied.
42

or disbelieve all, part, dr none of the testimony
of any witnesses.” Id. (citation and internal
quotation marks omitted).
Discussion
I.
Father’s first Point challenges the admission
into evidence of exhibits offered by Mother
pertaining to his mental health status and
treatment. Specifically, Father challenges the
admission of Exhibits 2 and 113, which are a
business records affidavit, and the associated
psychological evaluation report prepared by Dr.
Aileen Utley.3
3 Father also asserts error as to the admission of
Exhibits 110 and 112, which are a compilation of Father’s
mental health records from Tri-County Mental Health
Services, Inc., under the care of Dr. Parimal Purohit; and
ten pages of handwritten notes by Dr. Samuelson, who
also provided Father with mental health services. At
trial, Father stated he did not “have any objection with
the Purowit [sic] records,” and he therefore failed to
preserve any claim of error as to Exhibit 110. At trial,
Father’s only objections to Exhibit 112 were that it was
not complete, and that it was inadmissible in this
modification proceeding because it concerned Father’s
mental health prior to entry of the original dissolution
decree. Father did not preserve in the circuit court his
current claim: that Exhibits 110 and 112 were “not
served on Father until the third day of trial.” The
argument concerning belated disclosure of these exhibits
43

Dr. Utley was appointed by the court to conduct
a psychological and parenting assessment of
Father. Father argues that Exhibits 2 and 113
were improperly admitted for multiple reasons.
Among other things, he argues^ that Mother
failed to comply with the business records
affidavit statute, § 490.692,
RSMo, because Dr. Utley’s report was not
attached to the business records affidavit
Mother served on him; that Dr. Utley’s report
does not qualify as a business record subject to
the statute; that Dr. Utley was not qualified to
render the opinions described in the report; and
that
Dr.
Utley’s
report
constitutes
impermissible expert testimony concerning
Father’s credibility.
What is notably absent from Father’s briefing,
however, is any developed argument that he
was prejudiced by the admission of Dr. Utley’s
report.
We do not reverse circuit court
judgments based merely on the existence of an
erroneous ruling; instead, Rule 84.13(b)

was also not included in Father’s Point Relied On, and is
therefore not properly before us for that reason as well.
Curl v. BNSFRy. Co., 526 S.W.3d 215, 228 n.l (Mo. App.
W.D. 2017).
44

specifies that “[n]o appellate court shall reverse
any judgment unless it finds that error was
committed by the trial court against the
appellant materially affecting the merits of the
action.” (Emphasis added.) Consistent with
this general principle, caselaw holds that “the
erroneous admission of evidence in a court-tried
case is not grounds for reversal as long as there
is substantial admissible evidence in the record
to support the judgment.” C.S. u. Mo. Dep’t of
Soc. Servs., 491 S.W.3d 636, 646 (Mo. App. W.D.
2016) (citation and internal quotation marks
omitted). “Missouri Courts have described this
standard as being ‘practically impossible’ to
meet.” S.M.S. v. J.B.S., 588 S.W.3d 473, 509
(Mo. App. E.D. 2019) (citations omitted).4
4 See also, e.g., Andrews v. Andrews, 452 S.W.3d
150, 154 (Mo. App. W.D. 2015) (finding no basis for
reversal of circuit court judgment refusing to authorize
mother’s relocation with children, even assuming
guardian ad litem’s report was erroneously admitted,
where “the record is replete with sufficient competent
evidence to support the court's judgment”); Rathbun v.
CATO Corp., 93 S.W.3d 771, 785 (Mo. App. S.D. 2002)
(“[T]he erroneous admission of evidence is ‘scarcely ever’
grounds for reversal in a courttried case,” “except where it
appears from the record that the court relied on the
evidence and that no other competent evidence supports
the judgment.”); Love v. Love, 72 S.W.3d 167, 173-74 (Mo.
45

Father does not argue that the circuit court’s
modification judgment is unsupported by
substantial evidence if Dr. Utley’s report is
disregarded. Nor could he plausibly make such
an argument. The circuit court may order
supervised visitation where it finds that
unsupervised visitation “would endanger the
child’s physical health or impair his or her
emotional development.” § 452.400.1, RSMo;
see also, e.g., Baker v. Gonzalez, 315 S.W.3d
427, 433 (Mo. App. S.D. 2010) (holding that
“ [t] his ‘endangerment-impairment standard’
applies to an order for supervised visitation.”
(citing Buschardt v. Jones, 998 S.W.2d 791, 799
(Mo. App. W.D. 1999)). Under § 452.400.2, this
standard must be satisfied in a modification
judgment, where a modified parenting plan
“restricts] or limit[s] one party's visitation
rights compared to their visitation rights under
the original [judgment].” Turley v. Turley, 5
S.W.3d 162, 165 (Mo. 1999). In this case,
although the original dissolution decree
authorized Mother to require Father’s
App. S.D. 2002) (finding no basis for reversal of child
custody provisions of dissolution decree, even assuming
that admission of guardian ad litem's report was
erroneous, because “the custody provision of the decree is
[otherwise] supported by substantial evidence”).
46

visitation to be supervised, the circuit court
only mandated supervised visitation in the
modification judgment. We therefore assume
for purposes of this opinion that the evidence
was required to satisfy the endangermentimpairment standard.
Substantial evidence - separate and apart from
Dr. Utley’s report - supports the circuit court’s
finding that unsupervised visitation with
Father would endanger the children’s physical
health, or impair their emotional development.
In justifying supervised visitation in this case,
the modification judgment refers to the circuit
court’s own observation of Father’s behavior in
the course of this litigation. The judgment finds
that Father’s “erratic filing of motions” and
direct and indirect threats against the court,
opposing counsel, and the Guardian ad Litem
“shows a lack of stability in his mental health.”
The judgment also refers to Father’s “hostile
and disagreeable attitudes” while being
questioned during trial.
The modification judgment also cites Father’s
erratic, aggressive or troubling behavior in his
interactions with Mother, her fiance, and the
children, including:
sporadic exercise of
47

visitation; refusing to return the children to
Mother after his visitation time had ended;
unilaterally enrolling the children in a
parochial school, even though Mother had been
awarded sole legal custody! conflict and
expressions of anger towards Mother’s fiance as
he interacted with the children, including “one
occasion [when Father] went into a rage and
insisted that the fiance move when one of the
boys was on his lap”! a “road rage” incident with
the children in Father’s car! and Father
“demeaning [Mother], bullying her and name­
calling”
during
Father
and
Mother’s
communications.
Finally, the circuit court had substantial
evidence concerning Father’s mental health
condition and treatment, separate and apart
from Dr. Utley’s report. This evidence included
medical records of Father’s treatment by
multiple other mental health professionals, and
Father’s and Mother’s testimony. Father in his
testimony acknowledged that he was taking a
medication for Attention Deficit Hyperactivity
Disorder (“ADHD”) which two of his previous
physicians had advised him not to take because
it increased his psychotic symptoms (although
Father contended that he was now taking a
48

delayed- rather than immediate-release form of
the medication). Father also admitted in his
testimony that his current treating psychiatrist
had not had access to all of the treatment
records from his care by an earlier psychiatrist.
The record here contains substantial other
evidence - separate and apart from Dr. Utley’s
report — that supports the trial court’s judgment
that unsupervised visitation would endanger
the children’s physical health or emotional
development. Therefore, the admission of Dr.
Utley’s report — even if erroneous - would not
justify reversal. Point I is denied.
II.
In his second and third Points, Father argues
that the trial court erred in excluding an audio
recording he made of one of the children’s
baseball games, and in refusing to permit
Father to make an offer of proof as to the
content of the recording.
On the second day of trial, Father offered the
audio recording into evidence. He testified that
he made the recording “specifically because
[Mother] at this time has been saying lie after
lie after lie which my testimony already
49

establishes. So I wanted proof, if she makes any
allegations whatsoever, that I did not do
anything inappropriate.” In offering the audio
recording, Father initially testified that he
started the audio recording on his iPhone 5
smartphone when he arrived at the baseball
field! that he stopped the recording when the
game ended; that he transferred the recording
(by e-mail) from his smartphone to his desktop
computer! and that he transferred copies of the
recording from his computer onto three compact
discs (which he had provided to opposing
counsel, the Guardian ad Litem, and to the
court). Father contended that the recording
was probative to establish that Mother had
belittled him at the game, had withheld
visitation with the children from him, and had
alienated the children’s affections. He also
contended that the recording would disprove
Mother’s claims that he had upset the children
at the game, and had acted aggressively toward
Mother’s fiance.
Mother’s counsel objected on the basis that
“there’s no way to tell the veracity of this
recording [,] . . . [or] if certain things were
removed or added,” and that the recording was
over an hour long and would occupy
50

considerable trial time to play. Father then
repeated that he started the recording when he
arrived at the game and stopped it when he was
leaving, and that “[t]his document has not been
edited whatsoever.” When the circuit court
informed Father that it did not believe an
adequate foundation had been laid for the
recording, he added to his prior testimony that
his smartphone, computer and compact discs
were continuously in his custody and control at
all relevant times, and that “[t]he video [sic]
recording has not been altered in any form.”
Again, the court expressed concern that “there
is an element of the foundation that [Father]
ha[s] not established,” and sustained Mother’s
foundation objection.
After a short recess, the circuit court permitted
Father an additional opportunity to lay a
proper foundation for the recording. Father
“renew [ed] everything” he had said previously,
and added that “the phone was working in all
aspects prior to the time in which I made the
recording,” that the “speakers on the audio”
were Mother, Father, and the two minor
children, and finally that “the device was
properly working.” Mother’s counsel again

51

objected, and the trial court sustained the
objection and excluded the recording.
On the next day of trial, after hearing several
preliminary motions, Father sought permission
from the court to make an offer of proof
concerning the contents of the audio recording.
After hearing objections from Mother’s counsel
and the Guardian ad Litem, the circuit court
ruled that it would not accept as an offer of
proof anything beyond what Father had
previously stated when attempting to introduce
the audio recording into evidence.
We review the trial court’s decision to exclude
the audio recording for an abuse of discretion.
NorthStar Educ. Fin., Inc. v. Scroggie, 581
S.W.3d 641, 644 (Mo. App. W.D. 2019). “An
evidentiary ruling is an abuse of discretion only
if it is clearly against the logic of the
circumstances then before the court and is so
unreasonable and arbitrary that it shocks the
sense of justice and indicates a lack of careful,
deliberate consideration.”
Menschik v.
Heartland Reg’l Med. Ctr., 531 S.W.3d 551, 557
(Mo. App. W.D. 2017) (citation and internal
quotation marks omitted).

52

In State v. McFadden, 369 S.W.3d 727 (Mo.
2012), the Missouri Supreme
Court explained that, to
[e]stablish[ ] a proper foundation for the
admission
of
a
tape-recorded
conversation, one must demonstrate^
(l) the device was capable of
recording accurately; (2) the
operator of the recording device
was competent to operate it; (3)
the recording is authentic and
correct; (4) changes, additions
and deletions have not been
made to the recording; (5) the
recording has been preserved in
an acceptable manner! (6) the
speakers are identified! and (7)
the conversation was voluntary
and without inducement.
Id. at 752 (quoting State v. Fletcher, 948 S.W.2d
436, 439 (Mo. App. W.D. 1997)
(citing State u. Wahby, 775 S.W.2d 147, 153
(Mo. banc 1989))).
Although Father’s testimony may have
established several of the required foundational
elements for admission of an audio recording,
53

he never offered testimony as to one critical,
and central, issue: whether “the recording
[was] authentic and correct.” Father testified to
the manner in which the recording was made,
and to the chain of custody of the recording from
his smartphone to the compact discs on which
the recording was now housed. He never
testified, however, that he had listened to the
recording, or that the recording in fact fairly
and accurately depicted the events at his
children’s baseball game. Father’s failure to
explicitly testify that the recording was
accurate is particularly glaring given the
objection from Mother’s counsel as to “the
veracity of this recording.” While the circuit
court gave Father multiple opportunities to
supply the missing foundational element, he
failed to do so. In these circumstances, we
cannot find that the circuit court abused its
discretion in excluding the recording. Given
this fundamental, foundational defect in
Father’s proffer, we need not address his
separate claim that the circuit court erred by
refusing to permit him to make an offer of proof
concerning the recording’s contents.5

5 While we need not decide the offer of proof issue,
we emphasize that even if the circuit court is firmly
54

Points II and III are denied.
III.
In his fourth Point, Father argues - on multiple
grounds - that the circuit court erred in finding
him to be in contempt of the dissolution decree,
for failing to satisfy his obligation to reimburse
Mother for 50% of the children’s extracurricular
and unreimbursed medical expenses.
The modification judgment states^
[Father] is found to be in contempt of the
Judgment and Decree of Dissolution of
Marriage for willfully and maliciously
failing to reimburse [Mother] for
uninsured
medical
expenses
and
extracurricular expenses in the amount
of $6,352.03. [Father] shall purge himself
of this contempt by mailing a payment of .
$200.00 per month, post-marked on or
before on the 15th day of each month,
beginning January 15, 2019, to [Mother]
until the amount in full has been paid.
persuaded that proffered evidence is inadmissible, it
should permit an offer of proof except in unusual
circumstances “to preserve for the appellate courts’ review
a record of what evidence was offered but rejected.” State
ex rel. Praxair, Inc. v. Mo. Pub. Serv. Comm’n, 344 S.W.3d
178, 185-86 (Mo. 2011).
55

Failure by [Father] to make said
payments to [Mother] could result in
incarceration in the Platte County
Detention Center until such time as he
purges himself of this contempt.
Thus, the modification judgment finds that
Father failed to satisfy his support obligations
under the original dissolution decree, and
him
with
potential
future
threatens
incarceration if he fails to purge his contempt in
the manner specified. The judgment does not,
however, actually order Father’s incarceration.
For this reason, his appeal of the contempt
finding is premature.
Civil contempt orders are appealable
only when they become final. In re Marriage of
Crow & Gilmore, 103 S.W.3d 778, 780 (Mo.
2003). “For purposes of appeal, a civil contempt
order is not final until [it is] enforced.” Id. at
781 (citations and internal quotation marks
omitted; collecting cases).
Civil contempt
orders are enforced in two ways. If the remedy
is by a fine, a civil contempt order is enforced
“when the moving party executes on the fine.”
Id. Alternatively, if the remedy for contempt is
imprisonment, the contempt order is enforced
at the time a court issues an order of
56

commitment based on the contempt, or when
the contemnor is actually imprisoned. Id. at
781-82; see also Carothers u. Carothers, 337
S.W.3d 21, 25 (Mo. 2011).
In Crow, the
Supreme Court held that “the contempt order
was not enforced” and was therefore not
appealable, where — as here - “[b]y the words of
the ‘judgment,’ incarceration was conditioned
on Husband’s failure to purge the contempt
within 60 days. If he failed, the court could
impose incarceration by issuing an order of
commitment.” 103 S.W.3d at 782; accord In re
Marriage of Kimball, 583 S.W.3d 450, 454-55
(Mo. App. S.D. 2019); Navarro v. Navarro, 504
S.W.3d 167, 174 (Mo. App. W.D. 2016); Davis v.
Davis, 475 S.W.3d 177, 183 (Mo.
App. W.D. 2015) (dismissing appeal of contempt
ruling where “although the contempt judgment
contained a threat of incarceration, no warrant
of commitment to jail was ever entered”).
At the time this appeal was filed, the circuit
court had, found Father in contempt, but had
not enforced the contempt order by issuing an
order of commitment or actually incarcerating
Father. Father’s arguments in this appeal

57

concerning the validity of the contempt finding
are premature, and we do not consider them.
IV.
In his fifth Point, Father argues that the circuit
court erred in calculating his modified child
support obligation. Specifically, Father argues
that, in calculating the presumed child support
amount which Father was then ordered to pay,
the court failed to provide Father with credits
(against his gross income): (i) for a child born
to Father and his current wife after the original
dissolution decree, whom he supports, and who
primarily resides with him; (2) for health
insurance which Father purchased on behalf of
the children; and (3) for overnight visitation
Father has exercised with the children.
At trial, both parties submitted their own Form
14s for the circuit court to review. The trial
court rejected the parties’ Form 14s, and
instead prepared its own. Using its Form 14,
the circuit court calculated a presumed child
support amount of $554 per month. The court
used this calculated amount to increase
Father’s child support obligation from $505 per
month (as specified in the original dissolution
decree) to $554 per month.
58

“When determining the amount of child support to
be paid, the application of
Rule 88.01 and Form 14 is mandatory.” Monnig
v. Monnig, 53 S.W.3d 241, 248 (Mo. App. W.D.
2001) (citation and internal quotation marks
omitted). “Courts are permitted to either adopt
a Form 14 of the parties or create their own.”
M.L.R. u.
Jones, 437 S.W.3d 404, 406 (Mo. App. S.D.
2014) (citation omitted). In either case, the
Form 14 “amount must be calculated in
conformity with the Supreme Court’s directions
for its use.” Monnig, 53 S.W.3d at 248 (citation
omitted). On appeal, we review “the correctness
of the presumed child support amount ... to
ensure that not only is it done accurately from
a mathematical standpoint, but that the
various items and their amounts were properly
included in the calculation and supported by
substantial evidence.” Rackers u. Rackers, 500
S.W.3d 328, 334-35 (Mo. App. W.D.
2016) (citation and internal quotation marks
omitted).
A.

59

Father first argues that the circuit court erred
by failing to give him a credit under Line 2(c) of
Form 14 for another child he supports. Father
argues he is entitled to a credit for a daughter
born to Father and his current wife in July
2018, after the initial dissolution decree.
Mother responds that, because Father is “the
moving party” in this modification proceeding,
he is not entitled to a Line 2(c) adjustment. We
agree with Father that the circuit court erred in
failing to award him a credit on Line 2(c) for his
new child.
Line 2(c) provides an adjustment to a parent’s
monthly gross income, by reducing the parent’s
gross income on account of the parent’s
“[mlonthly support obligation for other
children.” “In Line 2(c), Form 14 ‘provides for
an adjustment to the gross income for other
children who are not part of the current
proceeding for which a party has primary
physical custody.’” M.L.R., 437 S.W.3d at 407
(citations omitted).
The comment for Line 2(c) explains when a
credit for support for other children is
warranted. It states:

60

In any action to decrease
(1)
child support, a parent obligated to pay
support shall not be entitled to a line
2(c) credit for children born to or
adopted by the parent obligated to pay
support after the entry of the current
order. However, the parent obligated to
pay support will be allowed a line 2(c)
credit for children that have remained
primarily residing with the parent
obligated to pay support from prior to
the existing order.
(2)
In any action to increase
child support, a parent obligated to pay
support shall be entitled to a line 2(c)
credit for children born to or adopted by
the parent obligated to pay support after
the entry of the current order. However,
the use of the credit alone cannot act to
reduce the current support amount in
the action in question.
(Emphasis added.)6
Thus, under the official comments to Line 2(c)
of Form 14, Father would be entitled to a credit
against his gross monthly income for his
support obligation for children born or adopted
after the initial dissolution decree, “[i]n any
action to increase child support.” Such a credit
would not be available, however, “[i]n any
61

Mother
action to decrease child support.”
argues that, because “Father was a moving
party in this action [he is] not entitled to credit
for his after-born child.” We disagree.
There is no question that Father initiated these
proceedings by filing a motion to modify “Child
Custody and Custody Time.” In his motion,
Father asked for a “review of child support,”
and a reduction in his support obligation, as a
result of the altered custody arrangement he
proposed. In addition to opposing Father’s
motion, Mother filed her own motion to modify
child support, seeking an increase in Father’s
child support obligation due to changed
circumstances,
including
Father’s
new
employment.
6 The current comment to Line 2(c), which has been
in effect since January 1,
2014, is worded differently than the earlier
comment. The earlier comment denied a Line 2(c)
credit for later-born and later-adopted children to
“the moving party,” “in an action to increase or
decrease the support payable under an existing
order.” Cases decided under the earlier comment
held that a paying parent who had moved to modify
his or her child support was not entitled to a Line
2(c) credit for later-born children, even if the circuit
court denied the paying parent’s motion to modify,
and instead granted the recipient parent’s cross62

motion. See, e.g., Cross v. Cross, 318 S.W.3d 187,
195-96 (Mo. App. W.D. 2010). Because the current
comment does not deny credit to any parent who is
a “moving party,” and allows the credit in “any
action to increase child support,” cases decided
under the earlier version of this comment are no
longer relevant to the issue we address.
The comment to Line 2(c) does not define the
phrase “any action to increase [or to decrease]
child support.” We conclude, however, that the
phrase must be read to refer to each separate
motion to modify child support which a circuit
court addresses. The intent of the comment to
Line 2(c), and the limitation it places on the
availability of a credit, seems clear: a parent
may not seek to reduce their child support
obligation for existing children, by invoking
their newly incurred obligation to support laterborn or later-adopted children; on the other
hand, a parent’s preexisting child support
obligation cannot be increased without taking
account of any additional support obligations
the parent has since incurred.
It is a common occurrence that parents file
cross-motions to modify child support, with the
paying parent seeking a reduction in their
support obligation, while the recipient parent
seeks an increase. We do not believe the
availability of the Line 2(c) credit should
63

depend on which motion was filed first.
Instead, the comment to Line 2(c) makes clear
that a paying parent cannot rely on a new child
to seek to reduce their pre-existing support
obligations, but that the recipient parent
cannot seek an increase in child support while
ignoring the fact that the paying parent now
has additional support obligations. Where a
parent files a motion to increase the other
parent’s child support obligation - whether as
an original motion or as a counter-motion - the
paying parent is entitled to a Line 2(c) credit for
children born or adopted after the original child
support order.
Here, the circuit court denied Father’s motion
to modify the child custody arrangement, and
his associated motion to reduce his child
support accordingly. Based on Father’s new
employment, the circuit court instead granted
Mother’s motion to modify, which sought to
increase Father’s support obligation. Because
Mother’s motion was an “action to increase
child support,” the circuit court was required to
give Father a Line 2(c) credit for his support
obligation to his new child.

64

Accordingly, we reverse the trial court’s upward
modification of Father’s child support
obligation, and remand with instructions that
the court recalculate Father’s presumed child
support including a Line 2(c) adjustment for
Father’s other child, and such further
proceedings as may be required on Mother’s
motion to modify.
B.
Father next argues the trial court erred in its
calculation of his presumed child support
amount, because it “refus[ed] to give Father a
credit [on Line 6(c) of Form 14] . . . for the pro
rata cost of purchasing health insurance on
behalf of the minor children.”
Line 6(c) provides a credit for “[hlealth
insurance costs for the children who are
subjects of this proceeding.”. In Harris v.
Parman, 54 S.W.3d 679 (Mo. App. S.D. 2001),
the Southern District held that it was error for
a circuit court to allow a parent a credit on Line
6(c) for the cost of health insurance, when the
other parent had been ordered by the court to
provide health insurance for the parties’
children. Id. at 690.
65

In this case, the original dissolution decree
provided that “Mother shall carry medical
insurance for the minor children.” Similarly,
the modification judgment specified that
“Mother shall continue to provide medical
insurance for the minor children,” “either
through her employer or that of her fiance.”
The circuit court noted that Father “may
provide additional health insurance coverage
for the minor children at issue in this case, but
he is not ordered by this Court to do so and as
such, will not receive a credit on the Form 14 for
any health insurance expense.”
Because Father had no obligation under the
original dissolution decree or under the
modification judgment to provide health
insurance coverage for the children, the circuit
court did not abuse its discretion in refusing to
give him a credit on Line 6(c) for the cost of any
health insurance coverage he chose to purchase.
C.
Finally, Father asserts the circuit court
erroneously failed to give him credit for
overnight stays that the children had with him.

66

Line 11 on Form 14 provides an “[adjustment
for a portion of amounts expended by the parent
obligated to pay support during periods of
overnight visitation or custody.”
“This
adjustment is based on the number of periods of
overnight visitation or custody per year
awarded to and exercised by the parent
obligated to pay support under any order or
judgment.” Form 14, Comment to Line 11; see
also Conrad v. Conrad, 76 S.W.3d 305, 310 (Mo.
App. W.D. 2002) (the overnight visitation
adjustment is “limited to ‘court-ordered’
[overnight] visitation”). Here, the circuit court
did not grant Father any period of overnight
visitation or custody, either in the original
dissolution decree, or in the modification
judgment.
Father is accordingly not entitled to any credit
on Line 11 for overnight visitation.
V.
Next, Father argues the circuit court erred in
ordering Father to pay a portion of the Guardian ad
Litem’s fees because, according to Father, the
Guardian ad Litem should have been removed for
failure to perform her duties.
Under § 452.423.5,
RSMo, “[t]he guardian ad litem shall be awarded a
67

reasonable fee for such services to be set by the
court.” § 452.423.5. The circuit court has the
discretion to fix reasonable compensation for a
guardian ad litem’s representation, and we review a
judgment ordering the payment of guardian ad litem
fees only for an abuse of that discretion. S.I.E. v.
J.M., 199 S.W.3d 808, 822 (Mo. App. S.D. 2006).
The circuit court found that the Guardian ad
Litem “has performed good and valuable legal
services to protect the best interests of the
minor children,” and awarded $10,959.62 in
fees as “fair and reasonable” compensation.
The court ordered Father to pay 2/3 of the
Guardian ad Litem’s fees ($7,306.34) and
Mother to pay the remaining 1/3 (or $3,653.28).
Father does not challenge the amount of
fees the circuit court awarded to the Guardian
ad Litem. Instead, he argues that the Guardian
ad Litem should not have been awarded any fee,
because the Guardian ad Litem should have
been removed for deficient performance.
Under § 452.423.4, RSMo, the circuit court must
remove a guardian ad litem that fails to
“faithfully discharge such guardian ad litem’s
duties.” Ultimately, “[rlemoval of a guardian ad
litem is a matter vested in the sound discretion
68

of the appointing court.” Guier v. Guier, 918
S.W.2d 940, 950 (Mo. App. W.D. 1996) (citation
omitted).
The circuit court did not abuse its discretion in
refusing to remove the Guardian ad Litem in
this case. The record shows that the Guardian
ad Litem conducted a thorough and
independent review of all the records and
evidence in this case, communicated with both
Mother and Father in person and through email, and visited the minor children on multiple
occasions. While Father suggests additional
actions the Guardian ad Litem could have
taken, the Guardian ad Litem’s failure to take
these additional actions does not rise to the
level of dereliction of duty that would justify
this Court in finding that the circuit court
abused its considerable discretion in leaving the
Guardian ad Litem in place. Further, while
Father may disagree with the opinions and
recommendations expressed by the Guardian
ad Litem,
[t]he guardian’s principal allegiance is to
the court and h[er] function is to advocate
what [s]he believes to be the best
interests of the children. Obviously, this
will likely be contrary to the position
69

taken by one of the parents, in this case
the Father. Father’s complaints boil
down to the fact that he was upset
because the guardian did not necessarily
agree with Father's positions. The trial
court did not err in refusing to remove the
guardian based on Father’s allegations of
bias and prejudice.
Guier, 918 S.W.2d at 950 (citation omitted).
VI.
In his seventh Point, Father argues the trial
court abused its discretion in awarding Mother
$10,000 in attorney’s fees. Father argues the
trial court abused its discretion in awarding
Mother these attorney’s fees because the court
“failed to consider and/or properly weigh[ ] the
statutory factors (i.e., [Mother’s financial
ability to pay, Father’s attempt to avoid
litigation, and Mother’s misconduct [at
trial]).”
Generally, “parties to a domestic relations case
are responsible for paying their own attorney’s
fees.” Alberswerth v. Alberswerth, 184 S.W.3d
81, 93 (Mo. App. W.D. 2006) (citation omitted).
However, trial courts have “considerable
discretion” to award attorney’s fees under §
70

452.355, RSMo, but if the court chooses to do so,
it “must comply with section 452.355.” Id.
(citations omitted). In other words, the trial
court must consider “all relevant factors,
including the financial resources of both
parties.” Id. (citation omitted); see Barancik u.
Meade, 106 S.W.3d 582, 594 (Mo. App. W.D.
2003) (“A court is always required to consider
the financial resources of both parties before
deciding a request for attorney fees.” (citation
omitted)). In addition to the parties’ financial
resources, the trial court should consider “the
merits of the case and the actions of the parties
during the pendency of the action.” § 452.355.1.
“When all relevant factors are considered . . .
the trial court’s decision is within its
discretion.” Cohen v. Cohen, 178 S.W.3d 656,
674 (Mo. App. W.D. 2005). Finally, there is no
one-size-fits-all analysis under the relevant
factors^ “The relevant factors will balance
differently in each case.” Alberswerth,
184 S.W.3d at 94.6

6 The circuit court also found that Father had
failed to pay his court-ordered child support “in bad faith.”
Under § 452.355.2,
71

In the modification judgment, the circuit
court found that:
[Father], through his actions to prolong
and complicate this matter along with his
actions taken in bad faith including his
failure to pay the ordered child support
amount, caused [Mother] to incur
attorney fees in the amount of
$20,250.00, an amount in excess of that
which would be reasonably incurred by
[Mother] in this matter.
The court ordered Father to pay $10,000 of
Mother’s fees, slightly less than half of the fees
it found she had incurred. Elsewhere in the
court’s judgment, it discussed the parties’
relative salaries in connection with the
modification of child support, and Father
makes no argument that he is financially
unable to pay the attorney’s fees the circuit
court ordered.
Additionally, the court
considered Father’s actions throughout the
course of these proceedings which the court
personally observed to have prolonged and
complicated these proceedings
findings
[i]n any proceeding in which the failure to
pay child support pursuant to a . . . final
judgment is an issue, if the court finds that
the obligor has failed,
72

Father does not challenge on appeal. In his
brief, Father merely asserts additional facts
that would potentially militate in his favor
(such as his attempt to mediate before trial; and
the alleged misconduct of Mother’s counsel
during the litigation). However, our function on
appeal is not to reweigh the relative merit or
culpability of each party’s conduct during the
litigation. There plainly were circumstances in
this case which would justify the circuit court in
concluding that an award of $10,000 in
attorney’s fees to Mother was warranted.
VII.
Father argues in his eighth Point that the judge
erred in failing to recuse herself.
Under § 508.090.1(1), a judge “may be
disqualified in any civil suit” if “the judge is
interested or prejudiced.” The Code of Judicial
Conduct requires recusab

without good cause, to comply with such order
or decree to pay the child support, the court
shall order the obligor, if requested and for
good cause shown, to pay a reasonable amount
for the cost of the suit to the obligee, including
reasonable sums for legal services.
73

in any proceeding in which the judge’s impartiality
might reasonably be questioned, [including] where
the judge has a personal bias or prejudice concerning
a party or knowledge of facts that are in dispute.
Anderson u. State, 402 S.W.3d 86, 91 (Mo. 2013)
(quoting Rule 2-2.11(A)(1)). “[A] disqualifying bias or
prejudice is one that has an extrajudicial source and
results in an opinion on the merits on some basis
other than what the judge learned from the judge’s
participation in a case.” Id. (quoting Smulls v. State,
10 S.W.3d 497, 499
(Mo. 2000)); see Martin v. State, 526 S.W.3d
169, 184 (Mo. App. W.D. 2017) (“’Prejudice’
pursuant to section 508.090.1(1) aligns with the
duty to recuse pursuant to Rule 2-2.11 (A).”).
Because disqualifying bias must arise from an
extrajudicial source, “the mere fact that a
ruling is made against a party does not show
bias or prejudice on the part of the judge.”
Gordon on Behalf of G.J.E., 504 S.W.3d 836,
847 (Mo. App. W.D. 2016) (citation and internal
quotation marks omitted). We “presumeQ that
a judge acts with honesty and integrity and will
not preside over a hearing in which the judge
74

cannot be impartial.” Anderson, 402 S.W.3d at
92 (citation omitted).
Father’s arguments for recusal are based on
adverse rulings made by the court during trial.
Thus, Father argues that the circuit court
exhibited bias: by denying his motions to
exclude Dr. Utley’s report; by excluding “an
exhibit email
(which Mother objected to)”; by excluding
“Father’s material evidence (Exhibits BB [the
audio recording], JJ)”; and by “sustaining
Mother’s objection to Father’s testimony that
Mother’s fiance 0 stated, ‘y°u’re not the boss of
me’ in the presence of the children, which
materially contradicted Mother’s hearsay
testimony.”
Even if these rulings were
erroneous, they do not establish a disqualifying
bias or prejudice from an extrajudicial source
which would require the court’s recusal.
We also reject Father’s argument that the
circuit court exhibited a disqualifying bias or
prejudice by “frequently threatening Father
with attorney fees if Father sought mediation,
sought to secure visitation, sought to prepare
for trial, and/or create a record for appeal.” The
record reflects that, on the occasions cited by
75

Father, the court merely reminded him that
Mother was incurring attorney’s fees as a result
of his various litigation tactics, and that the
court had the authority to award attorney’s fees
in its final judgment. Based on the record
before us, we find no abuse of discretion in the
court’s refusal to recuse itself.
VIII.
Father’s ninth and final Point argues that the
circuit court erred in finding that its modified
visitation schedule was in the best interests of
the children.7
Under § 452.400, a court may modify an
order granting visitation rights (l) “whenever

7 In the same Point Relied On, Father argues the
trial court “errored [sic] in finding a substantial and
continuing change that makes a change in custody
necessary . . . .” But the court did not order a
modification of the existing custody arrangement based
on a substantial and continuing change of circumstances.
The court instead only modified the existing visitation
schedule. Such a modification does not require the court
to find a “substantial and continuing change of
circumstances.” Russell v. Russell, 210 S.W.3d 191, 196
(Mo. 2007); Welcome v. Welcome, 497 S.W.3d 842, 846
(Mo. App. W.D. 2016).
76

modification would serve the best interests of the
child [ren]and, where the court is restricting a
parent’s visitation, (2) “it finds that the visitation
would endanger the child [ren]’s physical health or
impair

[their]

emotional

development.”

452.400.2(1).
To the extent Father challenges the circuit
court’s
endangerment/impairment
finding
necessary to impose supervised visitation, we
discussed the substantial support in the record
for this finding in § I above. We do not repeat
that discussion here.
“In matters pertaining to visitation rights, we
defer to the circuit court’s assessment of the
children’s best interests.” Stirling v. Maxwell,
45 S.W.3d 914, 915 (Mo. App. W.D. 2001)
(citation omitted). On appellate review, “[w]e
will affirm the judgment unless it is not
supported by substantial evidence, is against
the weight of the evidence, or the circuit court
misstates or misapplies the law.” Id. (citation
omitted). We will not reweigh the evidence
before the circuit court, or decide the best
77

§

interests issue anew. Librach v. Librach, bib
S.W.3d 300, 312 (Mo. App. E.D.
2019).
In its judgment modifying Father’s visitation
rights, the trial court made explicit and detailed
factual findings on each of the eight “relevant
factors” to determine the best interests of the
children under § 452.375.2, RSMo. On appeal,
Father challenges the court’s factual findings
under only four of the eight statutory factors.
Even as to the factors Father challenges, he
takes issue only with certain of the circuit
court’s specific factual findings, or cites to
additional evidence which — he contends mitigates
or
counter-balances
the
circumstances on which the circuit court relied.
Father’s ninth Point essentially invites this
Court to retry the “best interests” issue, and
reweigh the evidence the circuit court has
already carefully considered.
We decline
Father’s invitation.
We find no abuse of
discretion in the circuit court’s conclusion that
the parenting plan it ordered was in the best
interest of the parties’ children.
Conclusion
78

We reverse the circuit court’s imposition of a
modified child support obligation of $554 per
month on Father. We remand to the circuit
court for further proceedings on Mother’s
motion to modify the child support award,
consistent with this opinion. In particular, in
calculating Father’s presumed child support
amount in connection with Mother’s motion to
modify, the circuit court must give Father a
credit on Line 2(c) of Form 14, to reflect Father’s
support obligation for his new daughter. In all
other respects, the circuit court’s judgment is
affirmed.8

8Father filed a Motion for Criminal Contempt and Stay of
Execution of
Judgment, in which he asked this Court to “Cite and
Punish Jennifer Fain, Guardian Ad Litem, and Stephanie
Schutt, Respondent’s counsel for Criminal Contempt of
Court, and stay the execution of the underlying
judgments on the basis of criminal contempt.” The
79

basis of Father’s motion is his contention that the
Guardian ad Litem and Mother’s counsel
“knowingly suborned perjured statements [from
Mother’s testimony] and knowingly offered false
evidence” in submitting Dr. Utley’s report because
Mother lied to Dr. Utley.
Despite Father’s
conclusory allegations, he has presented no
evidence that the Guardian ad Litem or Mother’s
counsel knowingly permitted false testimony to be
introduced. Father’s motion to hold the Guardian
ad Litem and Mother’s counsel in criminal contempt
is denied.

IN THE CIRCUIT COURT OF PLATTE COUNTY,
MISSOURI
IN RE THE
FRAWLEY

MATTER

Case No.:
CV01718-O1

OF:

VICTORIA

12AE-

Petitioner,
Division:

4 vs.

MATTHEW J. FRAWLEY
JAN 0 3 2019

80

L.

Respondent.KIMBERLY K JOHNSON
Clerk of the Circuit Court Platte County, MO
MODIFICATION JUDGMENT
NOW on this day of January, 2019, Petitioner,
Victoria L. Frawley appears in person and by
counsel, Stephanie L. Schutt, Respondent, Matthew
J. Frawley appears in person,
pro se, and Guardian Ad Litem, Jennifer Fain,
appears on behalf of the minor children.
WHEREUPON, this cause comes on regularly to be
heard and being called, the cause is submitted to
the Court upon the pleadings and upon the
testimony of the parties and witnesses
and recommendation of the Guardian ad Litem, and
the Court, after hearing evidence, enters the
following findings and orders:
FINDINGS OF FACT
1.
This
Court has jurisdiction over the parties and the
subject matter of this action.
2. Petitioner had been a resident of the State of
Missouri for more than ninety (90) days
81

immediately preceding the filing of the Motion to
Modify Judgment as to Child Support.
At the time of filing the Motion to Modify Judgment
as to Child Support, Petitioner resided at
9322 N. Evanston Avenue, Kansas City, Clay
County, Missouri 64157.
3.
Petition
er is currently employed at Cerner, and her Social
Security Number is
XXX-XX-0767. Petitioner's current annual income
is $101,400.00.
4.
Respond
ent has been a resident of the State of Missouri, for
more than ninety (90) days immediately preceding
the filing of the Motion to Modify Judgment of
Dissolution as to Child Custody and Custody Time.
Respondent was residing at 440 N. Main Street,
Apartment H,
Liberty, Missouri 64068 and now resides at 2423
Beasley Court, E, Jefferson City, Missouri
5.
ent

is

currently

employed
82

at

Respond
Wakefield &

Associates, and his Social Security Number is XXXXX-1513. Respondent's current annual income is
$60,000.00.
6.
Heretof
ore, on March 7, 2013, this Court entered a
Judgment and Decree for Dissolution of Marriage in
this matter.
7.
Pursuan
t to said Judgment, the Petitioner was granted sole
legal and sole physical custody of the minor
children, Collin Matthew Frawley, now age 9, and
Jacob Alexander Frawley, now age 7, with
Petitioner's address for mailing and education
purposes, and Respondent was to pay $505.00 per
month for child support.
8.
Respond
ent filed his Motion to Motion to Modify Judgment
of Dissolution as to Child Custody and Custody
Time on June 10, 2016. Petitioner filed her Motion
to Modify Judgment as to Child Support on July 1,
2016.
More
9.
than thirty (30) days have elapsed since the filing of
and the service upon Petitioner of the Motion to
83

Motion to Modify Judgment of Dissolution as to
Child Custody and
Custody Time.
10.
Petition
er was personally served on June 21, 2016.
1 1 . The minor children currently reside with
Petitioner in the state of Missouri and have so
resided for more than six (6) months immediately
preceding the filing of the Motion to
Motion to Modify Judgment of Dissolution as to
Child Custody and Custody Time.
12.
In
making the findings set forth herein, the Court
made judgments regarding the
credibility of each witness. The Court accepted some
testimony as credible and rejected some as not
credible. The findings and conclusions made by the
Court in this Modification Judgment are consistent
with the Court's determination of the appropriate
weight of the evidence and the credibility of each
witness.
13.
In order
to determine the appropriate legal and physical
custodian for this case, and to determine the
84

appropriate Parenting Plan, the Court considered
the factors set forth in
Missouri Revised Statute 5452.375.2. Each of those
factors and the Court's factual assessment
regarding the same are set forth below:
The
(1)
wishes ofthe children's parents as to custody and
the proposed Parenting Plan submitted by both
parties.
(a)
The
Movant, Respondent Matthew Frawley, requests
that the parties be designated joint legal and joint
physical custodians and that he enjoy unsupervised
alternating weekend visitation.
(b)
Petition
er Victoria Frawley and the Guardian ad Litem
both request that the Court grant Petitioner sole
legal and sole physical custody of the minor children
with Respondent's visitation with the children to be
supervised.
(2)
The
needs of the children for a frequent, continuing and
meaningful relationship with both parents and the
ability and willingness ofparents to actively

85

perform the functions as mother andfather for the
needs of the children.
(a)
Petition
er has demonstrated the ability to maintain
functions as the mother for the children. Since the
date of the dissolution, she has been the sole party
responsible for maintaining the children's health,
dental health and academic performance, all of
which appear to be exceptional.

(b)
Petition
er provided updates and information to the
Respondent regarding the children's activities and
events, often receiving no response from the
Respondent.
(c)

Respond
ent served for a time as a coach for one of the
children's sports teams and also was a religious
educator
at
his
church.
However,
in
crossexamination, it was disclosed that these were
volunteer positions, not positions for which he was
selected.
(d)
Respond
ent is consistently late with regard to obligations for

86

the children and his pickup and delivery
children to Petitioner. On the occasions
Respondent was late, he would not call to
that he was going to be late. To confirm his
to arrive, Petitioner had to contact him.

of the
when
advise
intent

(e)

Despite
Respondent's assertion that he travels throughout
Missouri for his job, for a considerable period of
time, he did not schedule time with the children
when in the Kansas City area for work.
(f)
Respond
ent demonstrated anger that Petitioner's fiance
provided insurance coverage for the boys! rather
than expressing appreciation for that assistance.
(g)
Respond
ent did not pay child support for a considerable
period of time, and Petitioner had to utilize income
withholding to enforce support provisions.
(h)
Respond
ent went into Petitioner's home and read emails on
her computer without Petitioner's advance
knowledge and consent.

87

(i)
Respond
ent had an irrational reaction to seeing Petitioner's
fiance with the one of the boys on his lap.
The paternal grandmother suggested that
Petitioner had a road rage incident while the boys
were in her car. However, on the cross-examination
of the Guardian ad Litem, it was established that
the children were not bothered nor upset by the
alleged incident.
(k) While in the sole care of Petitioner, both boys are
doing so well in school that they have been
considered for the gifted program.
In October of 2016, Respondent was invited by
Petitioner to attend Trunk of Treat with the
children. Respondent did not show nor call to
explain why he would not be there.
(m)
In May
of 2016, the paternal grandmother sent an email to
Petitioner advising that she was "suspicious he's
(Respondent) going off'. However, in June of 2016,
she criticized the Petitioner and her fiance for not
being more supportive. It is this comment in June
of 2016 that causes the Court to be concerned about
the paternal grandparents serving as supervisors.

88

(n)
Petition
er advised that any communication between her
and the Respondent often led to the Respondent
demeaning her, bullying her and namecalling if he
did not receive what he was requesting in the
conversation.
The
interaction and interrelationship ofthe children
with parents, siblings and any other person who
may significantly affect the children 's best
interests.
(3)

(a)
Respond
ent's parents live in Bentonville, Arkansas, and do
not have frequent contact with the boys. The
evidence established that they had not seen the
children since December of 2017.
(b)
Respond
ent's brother has not seen the children for six to
seven months at the time of his testimony.
(c)

Respond
ent's wife told the boys that "you should have more
time with your dad". The Court views such
comments as inappropriate.
89

(d)
At the
time of the final evidence in this matter,
Respondent was seeing the children one time a
week but didn't call the children during the week.
(e)

The
evidence established that Respondent had not
attended any of the children's events since April of
2016 although the Petitioner had provided him with
schedules of all those events.

From
(f)
the evidence, it appears that the boys have a good
relationship with Petitioner's fiance.
(4)
Which
parent is more likely to allow the childfrequent,
continuing and meaningful contact with the other
parent.
(a)
Althoug
h the Judgment Decree of Dissolution of Marriage
did not provide any specified visitation for the
Respondent, Petitioner was generous in allowing
the Respondent to have extended time with the
children until she became concerned again
regarding his mental capacity and conduct.
(b)
On
occasion, Respondent would refuse to return the
90

children after his weekend to the Petitioner, instead
advising that he intended to keep the children
continuously for his Tuesday visitation.
(c)
Petition
er prohibited the children from going to a Branson
holiday lighting in 2016 to spend time with their
grandparents.
(d)
Petition
er refused any visitation after April 14, 2017, except
as supervised. However, this was within her rights
as a sole legal and sole physical custodian for the
children and was based upon her concern regarding
the apparent resurgence of conduct that
Respondent had previously exhibited prior to his
incapacity.
(e)

On some
occasions when the paternal grandparents were in
town, the Petitioner permitted the Respondent
more time with the children to spend with their
grandparents.
(f)
Althoug
h Petitioner is the sole legal and sole physical
custodian,

91

Respondent enrolled the children in St. James
School against her request and consent.
(g)
Althoug
h Respondent's Parenting Time was only that which
the Petitioner had permitted, he seemed to assert
that he was "entitled" to such visitation. On April 8
and 9, 2016, during such period of time, he refused
to allow Petitioner to have the children to spend
time with her dad (maternal grandfather) while in
town. In response, he belittled her and told her that
was an absurd request to make.
(h)
Althoug
h the Dissolution Decree did not provide any
specified visitation for the Respondent, Respondent
seemed to believe he had "judicially determined"
visitation time, rather than just consented time
that Petitioner allowed him to have when his
demeanor seemed stable. During one of those times,
he refused to permit Petitioner to take the children
to baseball practice.
(i)
Respond
ent reacts poorly to being in the presence of
Petitioner's fiance and often has conflict with him!
on one occasion he went into a rage and insisted
92

that the fiance move when one of the boys was on
his lap.
<j)

Another
time when Respondent was returning the children
to Petitioner's home, Petitioner was not home at the
time and Respondent refused to leave the children
with her fiance. He forced Petitioner to meet him at
Wal-Mart to pick up the children.

(k)
Respond
ent refused to reimburse Petitioner for medical
expenses because, in his perception, Petitioner was
withholding visitation from him.
The Respondent demonstrated hostile and
disagreeable attitudes in the courtroom in that he
would not admit that his interrogatory answers
were in fact his answers.
(m)
Followi
ng the Good Friday incident with the boys, that
evening in the dugout at the baseball game,
Respondent was whispering in the boys' ears and
they began to cry.
(n)
From
the Decree of Dissolution of Marriage, Petitioner
was sole legal and sole physical custodian and had
93

all authority to establish a parenting schedule. She
did provide Respondent with some Parenting Time
when he appeared to be mentally stable.
On one
occasion, Respondent took the boys out of town to
see his parents and did not disclose to Petitioner.

(o)

Despite
(p)
Petitioner having sole legal and sole physical
custody, Respondent signed the children up for a
Catholic school education and told the Petitioner
that "you do not get to make that decision".
The
(5)
child's adjustment to the child's home, school and
community.
The
(a)
children seem adjusted to their home with
Petitioner and her fiance.
From there they attend schools in which they are
comfortable.
(b)
Respond
ent has moved to Jefferson City and the children
have spent no time in that environment.
Accordingly, there is no adjustment there to home,
school or community.
94

The
minor children have substantial contacts in their
community, the community in which Petitioner
resides, through school and extracurricular
activities.
(c)

(d)
Respond
ent chose to move out of the Kansas City
Metropolitan Area thereby removing himself from
the minor children's community.
The
(6)
mental and physical health ofall individuals
involved, including any history ofabuse ofany
individuals involved. If the Court finds that a
pattern ofdomestic violence as defined in 5455.010
has occurred, and, ifthe Court also finds that
awarding custody to the abusive parent is in the
best interest ofthe children, then the Court shall
enter written findings of fact and conclusions of law.
Custody and visitation rights shall be ordered in a
manner that best protects the children and any
other child or children for whom the parent has
custodial or visitation rights and the parent or other
family household member who is the victim
ofdomestic violence from any further harm.
(a)
In 2013
a guardianship was established for the Respondent,
filed by his parents, due to mental incapacity.
95

(b)
Respond
ent was in treatment until 2016 for concerns about
his mental capacity. On March 3, 2013, he
attempted a suicide and on March 5, 2013, was
adjudicated incompetent. Respondent would not go
voluntarily for treatment.
Exhibit
101 included a reference that in 2006, Respondent
had a psychotic break, prior to the 2013
incompetency adjudication. Respondent remained
in assisted living until July of 2014.
(c)

A
(d)
mental evaluation was completed by Dr. Aileen
Utley which expressed concerns over the
Respondent's mental capacity and ability to care for
the children unsupervised.
At
Respondent's request, an exhibit was received into
evidence which was a series of questions prepared
by Respondent in which Dr. Shirley Eyman
provided her responses in handwritten notes.
Respondent referred to said exhibit as a "mental
(e)

evaluation" by Dr. Eyman. It was established in
cross-examination that Dr. Eyman provided her
96

evaluation without seeing the records of
Respondent's prior care provider, Dr. Samuelson. It
was also established that Dr. Eyman had spent very
little time with the Respondent prior to providing
her handwritten responses.
(f)
Respond
ent uses a medication which two of his treating,
qualified medical professionals have stated cause
increased psychosis in Respondent.
(g)
Respond
ent fails to share his prior medical records with his
current treating medical professional resulting in
his symptoms not being properly managed.
(h)
Accordi
ng to Dr. Utley, Respondent fails to have insight on
his own mental health condition and fails to follow
proper treatment protocol.
The
Guardian ad Litem is concerned about the mental
capacity of the Respondent and his ability to take
care of the children, and accordingly, requests
supervised visitation. She bases this determination
based on the concerns expressed by physicians (two
of his three physicians say that Adderall makes him
97

more manic and he should not be taking it). Dr.
Utley's evaluation further states^ "Mr. Frawley's
symptoms are at level of severity that compromise
the physical and emotional safety of his children
when they are in his care without supervision. As
he is very limited in his ability to accurately
evaluate and report his symptoms and problematic
behaviors, the children remain at risk for the
foreseeable future if left in his care unsupervised.'
(7)
The
intention ofeither parent to relocate the principal
residence ofthe children.
(a)
The
Petitioner advised that she does not intend to
relocate her home or the children.
(b)
The
Respondent has already relocated to Jefferson City,
Missouri.
(8)
The
wishes of the children as to the' children 's
custodian.
(a)
Accordi
ng to the Petitioner, she chose to utilize supervised
visits because of the boys' reaction to spending time

98

with their dad. Jacob became very withdrawn and
Collin would not get out of the car.

(b)

The
children voiced concerns to the Guardian ad Litem
about spending time with the Respondent.

14.
Since
the date of the Judgment and Decree for Dissolution
of Marriage, there have
been changed circumstances so substantial and
continuing as to make the terms of said Judgment
and Decree for Dissolution of Marriage
unreasonable in regard to child support, custody
and Parenting Time. The continuing and
substantial changed circumstances include but are
not limited to the following:
a.
Respond
ent has relocated his residence from the Kansas
City Metropolitan
Area to Jefferson City, Missouri;
b.
Respond
ent has engaged in a course of behavior which would
endanger the children's physical health or impair
99

their emotional development if Respondent engages
in unsupervised contact with the children, to wit:
i. Respondent uses a medication which two qualified
medical professionals have stated cause increased
psychosis in Respondent; ii. Respondent fails to
have insight on his own mental health condition
and fails to follow proper treatment protocol; and iii.
Respondent fails to share his prior medical records
with his current treating medical professional
resulting in his symptoms not being properly
managed.
(c)
Respond
ent has engaged in course of behavior during this
litigation that shows a lack of stability in his mental
health including but not limited to erratic filing of
motions during the course of trial, threats both
direct and indirect against this Court,
Counsel for Petitioner, and the Guardian ad Litem.
(d)
Respond
ent has obtained new employment and as a result
that the application of the Missouri Child Support
Guidelines and criteria set forth in Supreme Court
Rule 88.01 would result in a change of the existing
child support in an amount of 20 percent or more.

100

15.
a
As
result of such changed circumstances, a
modification
of
child
support,
custodial
arrangements and Parenting Time is necessary to
serve the best interest of the minor children.
16.
Petition
er and Respondent lack a commonality of beliefs
concerning parental decisions, and they have not
demonstrated a willingness or an ability to function
as a unit in
making parental decisions! therefore, after
consideration of all relevant factors, including those
set forth in Mo. Rev. Stat. 452.375, it is in the best
interest of the minor children that they be placed in
the sole legal custody of Petitioner
17.
Unsupe
rvised Parenting Time with Respondent would
endanger the children's physical health or impair
their emotional development for the reasons set
forth
above
and below!
therefore,
after
consideration of all relevant factors including those
in Mo. Rev. Stat. 452.400 and 452.375, it is in the
best interest of the minor children that they be
placed in the sole physical custody of Petitioner and
that Respondent be limited to Supervised Parenting
Time with the minor children through the
101

Transitions Program or another agreed-upon
supervising agency or person until further order of
this Court.
The
18.
Court finds that Parenting Plan set forth below is
in the best interest of the minor children and offers
a sufficient amount of Parenting Time with
Respondent to ensure that he is able to maintain a
frequent, continuing, and meaningful relationship
with the children, should he choose to do so, while
protecting the children.
PARENTING PLAN
A.
Designa
tion ofLegal Custody of the Children:
PETITIONER shall have sole legal custody of the
minor children namely: COLLIN FRAWLEY and
JACOB FRAWLEY, with PETITIONER 'S address
designated as that of the minor children 'sfor
mailing and educational purposes. PETITIONER
shall have sole physical custody of the minor
children subject to RESPONDENT'S Parenting
Time as is set forth herein below. It is in the best
interests of the children that the PETITIONER be
solely responsible for the care of the children. The
term "sole legal custody" means that PETITIONER
has the sole rights and responsibilities to the
102

children. In accordance with PETITONER'S
responsibilities, the PETITIONER shall make all
major decisions affecting the children solely. Such
major decisions shall include the children's
education, religious training, health, medical
decisions (except in an emergency), arrangements
for transfers from one parent to another, and other
important matters affecting the children.
B.
Parenti
ng Time Arrangement:
Pursuant to the Court's prior Judgment and Decree
of Dissolution of Marriage dated
March 7, 2013 Father's Parenting Time rights with
the minor children were restricted in
that Father was awarded "Parenting Time with the
minor children at all reasonable times and places to
be determined by the Mother in light of Father's
psychological difficulties. " Pursuant to RSMo.
452.400.2(3), when a court restricts a parent's
Parenting Time rights, a showing ofproof of
treatment and rehabilitation shall be made to the
Court before unsupervised Parenting Time may be
ordered. Based upon the Court's review of the
evidence including the testimony of the parties and
documents presented, it is the Court's position that
the Respondent has not been rehabilitated to such
103

an extent to allow unsupervised Parenting Time
with the minor children. Therefore, it is the position
of the Court that all Parenting Time between the
Respondent and the children shall be supervised, as
set forth more fully in this Parenting Plan.
VICTORIA FRAWLEY, Petitioner, described herein
as Mother, and MATTHEW FRA WLEY,
Respondent, described herein as Father, shall
exercise time with the minor children pursuant to
the following schedule:
(a). Parties ' Parenting Time During the Week:
i. Mother shall be the primary residential custodian
of the minor children except for the following times
and places wherein the children shall visit with the
Father:
1.
Supervi
sed Parenting Time: Father shall have Supervised
Parenting Time with the minor children every
Sunday from 8 am to 8 pm. Father's Sunday
Supervised Parenting Time may be exercised in the
Kansas City area or at or near Father's residence
in Jefferson City, Missouri. Because the children
often have extracurricular activities on Sundays
during Father's Parenting Time, it is suggested that
he not permit either child to miss two consecutive
Sunday events for any particular activity. Mother
104

shall limit the' activities scheduled to take place
during Father 's Parenting Time to the extent
possible. In addition to Father's Sunday Supervised
Parenting Time, Father may have additional
Supervised Parenting Time with the children in the
Kansas City area for at least 6 hours per week. Said
additional Supervised Parenting Time shall be
arranged between Mother and Father and
Father shall give Mother and the supervising party
seventy-two (72) hours' notice of his intended dates
and time of Supervised Parenting Time. Father
shall attempt to schedule his additional Supervised
Parenting Time
around the
children
's
extracurricular activities schedule, and medical
appointment schedule. Father shall be responsible
for picking up the minor children from Mother 's
residence at the beginning of his Supervised
Parenting Time and returning the minor children to
Mother 's residence at the conclusion of his
Supervised Parenting Time. The approved
supervisor shall be present during transportation
and exchanges of the children.
2.
Father's
Parenting Time shall be supervised by a
professional offering Supervised Parenting Time
services, or any other supervisor approved in
writing by Mother.

105

3.

General

Provisions:
Father
a.
shall remain compliant in his psychiatric treatment
including but not limited to medication compliance
and therapy compliance.
Father
b.
shall be solely liable for the costs of the Supervised
Parenting Time services.
Father's
c.
Parenting Time shall not interfere with the children
's school schedule.
If
d.
Father should not be able to exercise his scheduled
Parenting Time as set forth above, then Father
shall give advance notice of at least forty-eight (48)
hours ifpossible, and otherwise, as early as possible.
Father
shall sign releases, when requested by Mother, so
that counselors and treatment providers working
with him can convey pertinent information to
Mother, (b). Holidays:
e.

i. General Holiday Provisions.
In even1.
numbered years Father shall have the following
106

supervised Holiday Parenting Time which may be
exercised in the Kansas City area or at or near
Father's residence in Jefferson City, Missouri:
a.
Year's Day from 8 am to 8 pm;

New

b.
Preside
nt 's Day from 8 am to 8 pm;
c.
Memori
al Day from 8 am to 8 pm;
Labor

d.
Day from 8 am to 8 pm;
e.

Hallowe
en from the release of school to 9 pm
(notwithstanding anything herein to the contrary,
said
Parenting Time shall be exercised in the Kansas
City area);
Christmas Eve from 8 am to 8 pm;
g. Father's Day from 8 am to 8 pm.

107

2.
In oddnumbered years Father shall have the following
supervised Holiday Parenting Time which may be
exercised in the Kansas City area or at or near
Father's residence in Jefferson City, Missouri:
a.
Luther King Day from 8 am to 8 pm;

Martin

b.
from 8 am to 8 pm;

Easter

July 4th
from 8 am to 8 pm; d, Columbus Day from 8 am to 8
pm; e. Thanksgivingfrom 8 am to 8 pm;

c.

Christmas Day from 8 am to 8 pm;
g. Father's Day from 8 am to 8 pm.
In even3.
numbered years Mother shall have the following
Holiday Parenting Time:
a, Martin Luther King Day from 8 am to 8 pm;
b.
from 8 am to 8 pm;

Easter

c.

July 4th

from 8 am to 8 pm;
108

d.
Columb
us Day from 8 am to 8 pm!
e.

Thanks
givingfrom’8 am to 8 pm;
£
Christm
as Day from 8 am to 8 pm;
g's Day from 8 am to 8 pm.

Mother

4. In odd-numbered years Mother shall have the
following Holiday Parenting Time:
a.
Year's Day from 8 am to 8 pm;

New

b.
Preside
nt's Day from 8 am to 8 pm;
c.

Memori
al Day from 8 am to 8 pm!
Labor

d.
Day from 8 am to 8 pm!
109

V.

k

e.

en from the release ofschool to 9 pm;
Eve from 8 am to 8 pm;

Hallowe
Christmas

g. Mother's Day from 8 am to 8 pm.
5. Holiday Parenting Time and Parenting Time
shall supersede the parties Parenting Time during
the week.
C. Rights And Responsibilities Regarding Health,
Education, And Welfare
c‘

*

r

(a). Routine and Minor Decisions: Mother shall
decide all routine and minor matters concerning the
child's welfare occurring while in that parent's
custody.

3

(b). Residence Address and Phone Number: Each of
the parties shall supply the other with his/her
current residential address and current home,
work, and cell phone numbers and shall advise the
other of any changes that may occur. Such notice
should be made promptly, but in any event, it shall
be made in writing thirty (30) days before the
change. It is also advisable for each parent to give
the other parent a telephone number to be reached
ifan emergency situation should arise, (c). Change
in Childi*en's Residence.
110

f
1

Current
Missouri law provides that absent exigent
circumstances as determined by a court with
jurisdiction, the parties to this action are ordered to
notify the other, in writing by certified mail, return
receipt requested, and at least sixty days prior to
the proposed relocation of any proposed relocation
of the principal residence of the children including
the following information:
1.

The
1.
intended new residence, including the specific
address and mailing address, ifknown, and ifnot
known, the city.
2.
The
home telephone number of the new residence,
ifknown.
The
3.
date ofthe intended move or proposed relocation.
4.
A brief
statement of the specific reasons for the proposed
relocation ofthe children; and
5.
A
proposal for a revised schedule of custody or
Parenting Time with the children.

Ill

This
obligation to provide this information to the other
continues as long as any party, by virtue of this
order, is entitled to custody of a child covered by this
order. The parties understand that any failure to
obey the order of this court regarding the proposed
relocation may result in further litigation to enforce
such order, including contempt of court. In addition,
any failure to notify a party of a relocation of the
children may be considered in a proceeding to
modify custody or Parenting Time with the
children.

11.

Reasonable costs and attorney fees may be assessed
against any party who fails to give this required
notice.
(d). Extracurricular Activities: Mother shall
encourage the minor children to participate in
extracurricular athletic and social activities.
Mother shall be solely responsible for all decisions
relating to the athletic and social activities of the
minor children. At her discretion, Mother shall
provide all transportation to and from any such
activity. Father shall be allowed to attend any
extra-curricular or school sponsored event for the
minor children; however, in no event shall father
attempt to visit with the children at such event.
Mother shall provide to Father, as soon as practical,
112

information
regarding
the
children
's
extracurricular activity schedule and school event
schedule. The payment of expenses associated with
extracurricular athletic or social activities for the
children shall be equally shared between the
parties. The parties shall provide each other with a
statement for all extracurricular activities fees due,
or other documentation of the expense within thirty
(30) days of receipt of a statement of such expense,
or payment ofsaid expense, whichever occurs first,
and then the other party shall then reimburse the
party who paid for his or her share of said expense,
within thirty (30) days of receipt of documentation.
This reimbursement shall not include Respondent's
transportation expense and supervision costs as he
was given a partial credit for those on the Form 14
child support calculations.
(e). Access to Medical Records: Mother shall have
complete access to the children's medical and dental
records. Mother shall provide Father with copies of
the children's medical and dental records upon
request ofFather.
C). Medical Care - Routine: Mother shall provide
proper routine health and dental care to the
children as needed. Mother shall continue to
provide medical insurance for the minor children.
NonCovered Costs: The health benefit plan coverage

l.

113

described above may not pay all the children's
medical, dental, orthodontic, optical, and other
health care expenses. Mother and Father have the
financial resources to pay the costs of health care
for the child not covered by the health benefit plan.
The cost, expense, or charges for all medical, dental,
orthodontic, endodontic, prescription, optical,
psychiatric, psychological, nursing, counseling, and
other health care expenses incurred by or on behalf
of the children to the extent that the "medical costs
" are actually incurred and are not fully covered, not
fully paid, or not reimbursed by the health benefit
plan shall be equally shared between Mother and
Father. Each parent will be ordered to comply with
the health benefit plan in using health care
providers and to timely submit claim information to
the health benefit plan. If a parent fails to comply
with the policy requirements and this results in an
additional unpaid cost, that parent will be required
to pay all of the additional costs attributable to the
failure to comply.
11.

Meehan
ism for Paying Non-Covered Costs
1.
A
parent obtaining the non-covered care will provide
a copy of each bill to the other parent and submit
covered expenses to the insurer for payment. If a co114

payment is required al the time of service, the
parent will keep the receipt for the co-pay amount.
2.
That
parent should also send the other parent a copy of
the insurer's Explanation of Benefits showing the
amount paid or denied. Within 30 days of receipt of
the Explanation of Benefits, each parent must pay
his or her shares of the amount owed to the medical
provider and reimburse the other parent the
appropriate portion of the amount advanced by that
parent. If the amount owed to the medical provider
cannot be paid in full within 30 days, each parent
should arrange payment for his or her share of the
expenses.
(g), Major Medical Decisions: Mother shall solely
make the decision for any proposed medical, dental,
or health care for the children.
(h). Medical Providers: The current treating doctors
and dentists shall continue to treat the children
unless the Mother deems a change is necessary or
insurance requires a change.
(i). School Records: Mother shall have complete
access to the children's school records. Mother shall
provide Father with copies of the children's school
achievement, progress reports, grade cards,
attendance records and other communication from

115

the school such as newsletters, notices offield trips
and special events.
(j). Attendance at School: The children shall attend
school where Mother resides, (k). School and
Organized Activities: Mother shall be responsible
for deciding and enrolling the children in activities
such as sports teams or lessons. (1). General
Provisions:
Each
party shall use their best efforts to foster a
continuous relationship of respect, love and
affection between the minor children and the other
party, cooperating fully with the other in
implementing a relationship with the minor
children that will give the minor children a
maximum feeling of security.

1.

Each
party shall set aside any issues and feelings of
mutual antipathy and discord toward the other for
the sake of cooperating in the raising of the minor
children.

n.

Father
and Mother shall not do anything which may
demean the other or estrange the other from the
minor children's love and affection or injure the
minor children's opinion of the other, or which may
hamper the free and natural development of the

in.

116

minor children's love of the other party interfere in
any way with the reasonable and proper
companionship between the minor children and the
other party.
The
primary consideration for the custody arrangement
shall be the minor children's welfare rather than
the desires or conveniences ofPetitioner and
Respondent.

IV.

D. Parenting Rules:
(a). Telephone Rules. Father and Mother may have
reasonable telephone contact with the children
while the children are with the other parent.
Telephone calls may take place at any time between
the hours of 10:00 a.m. and 8:00 p.m. The parent
seeking telephone contact with the children will
first text the other parent, and inform him or her
that he or she would like to talk to the children. The
other parent shall have the children return the
parent's call, at the children's soonest availability.
Neither parent shall block the other parent's
number from their cell phone. Mother may
supervise Father 's telephone contact with the
minor children.
(b). Contact between Parents. The parents shall
communicate with each other directly and shall not
use the children as messengers. The parents shall
117

communicate via e-mail only. Mother's preferred eand Father 's preferred e-mail is
mail is
frawleylawfirmllc@gmail.com. If either parent
changes his or her e-mail address, that parent shall
notify the other within 24 hours of said change. If
there is a failure to provide said notice, e-mails sent
to the above e-mail addresses shall be deemed
delivered successfully. The parties may only
communicate through telephone in the case of an
emergency. The parents shall limit their
communication to topics related to the children,
such as exchanges, the children's health, and travel
with the children. The parents agree to
communicate with each other in a polite and
respectful manner. The parents agree that neither
party shall threaten, stalk, molest, or disturb the
peace of the other.
(c). Cut Down Rule. Parents shall avoid degrading
language about the other parent in the presence of
the children. Neither parent shall by verbal or non­
verbal communication say or do anything which
might tend to derogate from the love and respect
which the children would otherwise naturally have
for the other parent, (d). Safety Rule. Parents shall
not allow their children to be in the presence of
known child abusers or persons accused of child
abuse during the process of such an investigation by
the police, Prosecuting Attorney's Office, or agency
designated by law to investigate the same. Parents
shall not allow their children to use or operate
118

dangerous machinery, equipment, guns, or to place
their children in physical or emotional danger. This
also includes using drugs or alcohol while driving,
using illegal drugs in the presence of their children
or alcohol to excess in the presence of their children.
The parents shall not smoke in the presence of their
children if the children suffer from asthma or other
respiratory illness.
(e). School Rule. The children should not be taken
out of school by any individual without the
knowledge and written permission of Mother.
Father shall not have Parenting Time with the
children while they are in school as school staff is
not an approved supervisor. Mother shall provide
Father with information sent home or supplied by
the school such as the calendar of school events,
grade cards, notice of parent teacher conferences,
etc.
(D. Children's Personal Property. When parents
give a safe and age appropriate toy or gift to their
children, the children should be allowed to
keep/use/enjoy and take that toy or gift to either
parent's home.
(g). Third Parties. The parents understand that
they are responsible for parenting their children.
Significant others, step-parents and grandparents
shall not interfere with or attempt to control the
parenting rights of either parent.
119

END PARENTING PLAN

Neither
19.
Petitioner nor Respondent has participated in any
capacity in any other litigation concerning the
custody of the minor children in this or any other
state; they have no information of any other custody
proceeding now pending in this or any other state;
and they know of no person not a party to these
proceedings who has physical custody of the minor
children or claims to have custody or Parenting
Time rights with respect to said children.
20.
Petition
er and Respondent are over the age of eighteen
years.
21 .
Neither
Petitioner nor Respondent is a member of the
Armed Forces of the United States or its allies on
active duty.
Neither
22.
Petitioner nor Respondent have been found guilty
of, nor plead guilty to, any offense which would
prevent the Court from awarding custody or
unsupervised Parenting Time to either party
pursuant to Mo. Rev. Stat. 452.375.3. Further,
120

there is no person residing with either Petitioner or
Respondent who has been found guilty of, or plead
guilty to, any offense which would prevent the
Court from awarding custody or unsupervised
Parenting Time to either party pursuant to Mo.
Rev. Stat. 452.375.3.
23.
This
Court finds, after consideration of all relevant
factors, including those set forth in Mo. Rev. Stat.
452.375, it is in the best interest of the minor
children that they be placed in the sole physical
custody of Petitioner, subject to Respondent's
reasonable Supervised Parenting Time rights, with
Petitioner's address designated as the address of
the children for mailing and educational purposes.
24.
The
Court rejects the Form 14s presented by Petitioner
and Respondent and prepares its own Form 14. The
presumed child support amount pursuant to Mo.
Rev. Stat. 452.340.8, Supreme Court Rule 88.01
and as calculated by Form 14 is $554.00. This
amount is not found to be unjust, and inappropriate.
Respondent shall pay to Petitioner via income
withholding order, to the Family Support Payment
Center as Trustee for Petitioner, the sum of $554.00
per month beginning January 1,2019.
25.
Petition
121

er and Respondent both have medical coverage
available for the minor children through their
employment, although Respondent was not
required by the Dissolution Judgment to provide
health insurance coverage for the minor, children.
Petitioner shall provide medical coverage for the
minor children either through her employer or that
of her fiance, if available to him. Respondent may
provide additional health insurance coverage for
the minor children at issue in this case, but he is not
ordered by this Court to do so and as such, will not
receive a credit on the Form 14 for any health
insurance expense. Further, the unpaid and/or
uncovered portion of the medical, dental, optical,
orthodontic, endodontic, psychiatric, psychological,
prescription and all other healthcare expenses will
be equally shared between the parties, as detailed
in the Parenting Plan set forth in this Modification
Judgment.
The
26.
parties shall equally share the extracurricular
activity expenses of the minor children as detailed
in the Parenting Plan set forth in this Modification
Judgment. Petitioner shall decide which activities
the children participate in and shall promptly
provide that information to Respondent.
27.
This
Court finds that the Guardian ad Litem, Jennifer
Fain, has performed good and valuable legal
122

services to protect the best interests of the minor
children and a fair and reasonable amount for said
services is $10, 959.62.
28.
Pursuan
t to the Judgment and Decree for Dissolution of
Marriage, Respondent was to pay to Petitioner the
sum of $505.00 per month as and for child support.
29.
Pursuan
t to the Judgment and Decree for Dissolution of
Marriage, Respondent was ordered to pay one-half
(h) of the uninsured medical expenses and
extracurricular activity expenses uncured on behalf
of the minor children.
30.
Petition
er submitted documents to request reimbursement
from Respondent for uninsured medical expenses
and extracurricular expenses incurred on behalf of
the minor children in the following amounts,
$3,745.24 for uninsured medical expenses and
$2,606.79 for extracurricular activity expenses.
31.
Respond
ent had the ability to pay these expenses and has

123

willfully and maliciously refused to pay these
expenses.
32.
Pursuan
t to MO .Rev. Stat. "52.355, Respondent, through
his actions to prolong and complicate this matter
along with his actions taken in bad faith including
his failure to pay the ordered child support amount,
caused Petitioner to incur attorney fees in the
amount of $20,250.00, an amount in excess of that
which would be reasonably incurred by Petitioner
in this matter.
33.
Respond
ent shall pay to Petitioner and/or her attorney,
Stephanie L. Schutt the sum of $10,000.00 as and
for attorney fees in this matter.
CONCLUSIONS OF LAW
IT IS ORDERED, ADJUDGED AND DECREED by
the Court that Petitioner is awarded sole legal
custody and sole physical custody of the parties'
minor children, Collin Matthew Frawley, now age
9, and Jacob Alexander Frawley, now age 7. The
children's address for mailing and educational
purposes is the same as that of Petitioner.

124

IT IS FURTHER ORDERED, ADJUDGED AND
DECREED by the Court that
Petitioner and Respondent, shall abide by the
following Parenting Plan incorporated herein:

PARENTING PLAN
A.
Designa
tion of Legal Custody of the Children:
PETITIONER shall have sole legal custody of the
minor children namely: COLLIN FRAWLEY and
JACOB FRAWLEY, with PETITIONER 'S address
designated as that of the minor children 'sfor
mailing and educational purposes. PETITIONER
shall have sole physical custody of the minor
children subject to RESPONDENT'S Parenting
Time as is set forth herein below. It is in the best
interests of the children that the PETITIONER be
solely responsible for the care of the children. The
term "sole legal custody" means that PETITIONER
has the sole rights and responsibilities to the
children. In accordance with PETITONER'S
responsibilities, the PETITIONER shall make all
major decisions affecting the children solely. Such
major decisions shall include the children's
education, religious training, health, medical
125

decisions (except in an emergency), arrangements
for transfers from one parent to another, and other
important matters affecting the children.
B.
Parenti
ng Time Arrangement:
Pursuant to the Court's prior Judgment and Decree
of Dissolution of Marriage dated March 7, 2013
Father 's Parenting Time rights with the minor
children were restricted in that Father was
awarded "Parenting Time with the minor children
at all reasonable times and places to be determined
by the Mother in light of Father's psychological
difficulties. " Pursuant to RSMo. 452.400.2(3), when
a court restricts a parent's Parenting Time rights, a
showing ofproof of treatment and rehabilitation
shall be made to the Court before unsupervised
Parenting Time may be ordered. Based upon the
Court's review of the evidence including the
testimony of the parties and documents presented,
it is the Court's position that the Respondent has
not been rehabilitated to such an extent to allow
unsupervised Parenting Time with the minor
children. Therefore, it is the position of the Court
that all Parenting Time between the Respondent
and the children shall be supervised, as set forth
more fully in this Parenting Plan.

126

VICTORIA FRAWLEY, Petitioner, described herein
as
Mother,
and
MATTHEW
FRAWLEY,
Respondent, described herein as Father, shall
exercise time with the minor children pursuant to
the following schedule:
(a). Parties' Parenting Time During the Week:
i. Mother shall be the primary residential custodian
of the minor children except for the following times
and places wherein the children shall visit with the
Father:
6. Supervised Parenting Time: Father shall have
Supervised Parenting Time with the minor children
every Sunday from 8 am to 8 pm. Father's Sunday
Supervised Parenting Time may be exercised in the
Kansas City area or at or near Father's residence
in Jefferson City, Missouri. Because the children
often have extracurricular activities on Sundays
during Father's Parenting Time, it is suggested that
he not permit either child to miss two consecutive
Sunday events for any particular activity. Mother
shall limit the activities scheduled to take place
during Father 's Parenting Time to the extent
possible. In addition to Father's
Sunday Supervised Parenting Time, Father may
have additional Supervised Parenting Time with
the children in the Kansas City area for at least 6
hours per week. Said additional Supervised
127

Parenting Time shall be arranged between Mother
and Father and Father shall give Mother and the
supervising party seventy-two (72) hours ' notice of
his intended dates and time of Supervised
Parenting Time. Father shall attempt to schedule
his additional Supervised Parenting Time around
the children's extracurricular activities schedule,
and medical appointment schedule. Father shall be
responsible for picking up the minor children from
Mother 's residence at the beginning of his
Supervised Parenting Time and returning the
minor children to Mother 's residence at the
conclusion of his Supervised Parenting Time. The
approved supervisor shall be present during
transportation and exchanges of the children.
7.
Father's
Parenting Time shall be supervised by a
professional offering Supervised Parenting Time
services, or any other supervisor approved in
writing by Mother.
8.
Provisions^

General

Father
a.
shall remain compliant in his psychiatric treatment
including but not limited to medication compliance
and therapy compliance.

128

b.
Father
shall be solely liable for the costs of the Supervised
Parenting Time services.
Father's
Parenting Time shall not interfere with the children
's school schedule.

c.

d.
If
Father should not be able to exercise his scheduled
Parenting Time as set forth above, then Father
shall give advance notice of at least forty-eight (48)
hours ifpossible, and otherwise, as early as possible.
Father
shall sign releases, when requested by Mother, so
that counselors and treatment providers working
with him can convey pertinent information to
Mother. Holidays:

e.

i. General Holiday Provisions.
1. In even-numbered years Father shall have the
following supervised Holiday Parenting Time which
may be exercised in the Kansas City area or at or
near Father's residence in Jefferson City, Missouri:
a.
Year's Day from 8 am to 8 pm;

129

New

b.
Preside
nt's Day from 8 am to 8 pm;
c.

Memori
al Day from 8 am to 8 pm!
Labor

d.
Day from 8 am to 8 pm;
e.

Hallowe
en from the release of school to 9 pm
(notwithstanding anything herein to the contrary,
said
Parenting Time shall be exercised in the Kansas
City area); Christmas Eve from 8 am to 8 pm;
g. Father's Day from 8 am to 8 pm.
In odd2.
numbered years Father shall have the following
supervised Holiday Parenting Time which may be
exercised in the Kansas City area or at or near
Father's residence in Jefferson City, Missouri:
a.
Luther King Day from 8 am to 8 pm;

130

Martin

b.
from 8 am to 8 pm;

Easter

c.

July 4th

from 8 am to 8 pm!
d.
Columb
us Dayfrom 8 am to 8 pm; e. Thanksgivingfrom 8
am to 8 pm!
Christmas Day from 8 am to 8 pm;
g. Father's Day from 8 am to 8 pm.
In even3.
numbered years Mother shall have the following
Holiday Parenting Time:
a.
Luther King Day from 8 am to 8 pm;

Martin

b.
from 8 am to 8 pm;

Easter

c.
from 8 am to 8 pm!

July 4th

d.
Columb
us Dayfrom 8 am to 8 pm;
131

e.

Thanks
givingfrom 8 am to 8 pm; j: Christmas Day from 8
am to 8 pm;
g. Mother's Day from 8 am to 8 ppi.
9, In odd-numbered years Mother shall have the
following Holiday Parenting Time:
a.
Year's Day from 8 am to 8 pm;

New

b.
Preside
nt's Day from 8 am to 8 pm;
c.

Memori
al Day from 8 am to 8 pm;
Labor

d.
Day from 8 am to 8 pm;
e.

Hallowe
en from the release ofschool to 9 pm; j: Christmas
Eve from 8 am to 8 pm;
g. Mother's Day from 8 am to 8 pm.

132

10. Holiday Parenting Time and Parenting Time
shall supersede the parties Parenting Time during
the week.
C Rights And Responsibilities Regarding Health,
Education, And Welfare
(a). Routine and Minor Decisions: Mother shall
decide all routine and minor matters concerning the
child's welfare occurring while in that parent's
custody.
(b). Residence Address and Phone Number: Each of
the parties shall supply the other with his/her
current residential address and current home,
work, and cell phone numbers and shall advise the
other of any changes that may occur. Such notice
should be made promptly, but in any event, it shall
be made in writing thirty (30) days before the
change. It is also advisable for each parent to give
the other parent a telephone number to be reached
if an emergency situation should arise, (c). Change
in Children's Residence.
i. Current Missouri law provides that absent
exigent circumstances as determined by a court
with jurisdiction, the parties to this action are
ordered to notify the other, in writing by certified
mail, return receipt requested, and at least sixty
days prior to the proposed relocation of any

133

proposed relocation of the principal residence of the
children including the following information:
1.
The
intended new residence, including the specific
address and mailing address, if known, and ifnot
known, the city.
2.
The
home telephone number of the new residence,
ifknown.
3.
The
date ofthe intended move or proposed relocation.
4.
A brief
statement of the specific reasons for the proposed
relocation ofthe children; and
A
5.
proposal for a revised schedule of custody or
Parenting Time with the children.
ii. This obligation to provide this information to the
other continues as long as any party, by virtue of
this order, is entitled to custody of a child covered
by this order. The parties understand that any
failure to obey the order of this court regarding the
proposed relocation may result in further litigation
to enforce such order, including contempt of court.
In addition, any failure to notify a party of a
134

relocation of the children may be considered in a
proceeding to modify custody or Parenting Time
with the children. Reasonable costs and attorney
fees may be assessed against any party who fails to
give this required notice.
(d). Extracurricular Activities: Mother shall
encourage the minor children to participate in
extracurricular athletic and social activities.
Mother shall be solely responsible for all decisions
relating to the athletic and social activities of the
minor children. At her discretion, Mother shall
provide all transportation to and from any such
activity. Father shall be allowed to attend any
extra-curricular or school sponsored event for the
minor children; however, in no event shall father
attempt to visit with the children at such event.
Mother shall provide to Father, as soon as practical,
information
regarding
the
children
's
extracurricular activity schedule and school event
schedule. The payment of expenses associated with
extracurricular athletic or social activities for the
children shall be equally shared between the
parties. The parties shall provide each other with a
statement for all extracurricular activities fees due,
or other documentation of the expense within thirty
(30) days of receipt of a statement of such expense,
or payment of said expense, whichever occurs first,
and then the other party shall then reimburse the
party who paid for his or her share of said expense,
within thirty (30) days of receipt of documentation.
135

This reimbursement shall not include Respondent's
transportation expense and supervision costs as he
was given a partial credit for those on the Form 14
child support calculations.
(e). Access to Medical Records: Mother shall have
complete access to the children's medical and dental
records. Mother shall provide Father with copies of
the children's medical and dental records upon
request ofFather.
(f). Medical Care - Routine: Mother shall provide
proper routine health and dental care to the
children as' needed. Mother shall continue to
provide medical insurance for the minor children.
NonCovered Costs: The health benefit plan coverage
described above may not pay all the children's
medical, dental, orthodontic, optical, and other
health care expenses. Mother and Father have the
financial resources

1.

to pay the costs Q/ health care for the child not
covered by the health benefit plan. The cost,
expense, or charges for all medical, dental,
orthodontic, endodontic, prescription, optical,
psychiatric, psychological, nursing, counseling, and
other health care expenses incurred by or on behalf
of the children to the extent that the "medical costs
" are actually incurred and are not fully covered, not
136

fully paid, or not reimbursed by the health benefit
plan shall be equally shared between Mother and
Father. Each parent will be ordered to comply with
the health benefit plan in using health care
providers and to timely submit claim information to
the health benefit plan. If a parent fails to comply
with the policy requirements and this results in an
additional unpaid cost, that parent will be required
to pay all of the additional costs attributable to the
failure to comply.
n.
Meehan
ism for Paying Non-Covered Costs
1.
A
parent obtaining the non-covered care will provide
a copy of each bill to the other parent and submit
covered expenses to the insurer for payment. If a co­
payment is required at the time of service, the
parent will keep the receipt for the co-pay amount.
2.
That
parent should also send the other parent a copy of
the insurer's Explanation of Benefits showing the
amount paid or denied. Within 30 days of receipt of
the Explanation of Benefits, each parent must pay
his or her shares of the amount owed to the medical
provider and reimburse the other parent the
appropriate portion of the amount advanced by that
parent. If the amount owed to the medical provider
137

cannot be paid in full within 30 days, each parent
should arrange payment for his or her share of the
expenses.
(g). Major Medical Decisions: Mother shall solely
make the decision for any proposed medical, dental,
or health care for the children.
(h). Medical Providers: The current treating doctors
and dentists shall continue to treat the children
unless the Mother deems a change is necessary or
insurance requires a change.
(i). School Records^ Mother shall have complete
access to the children's school records. Mother shall
provide Father with copies of the children's school
achievement, progress reports, grade cards,
attendance records and other communication from
the school such as newsletters, notices offield trips
and special events.
(j). Attendance at School: The children shall attend
school where Mother resides, (k). School and
Organized Activities: Mother shall be responsible
for deciding and enrolling the children in activities
such as sports teams or lessons. (1). General
Provisions:
Each
party shall use their best efforts to foster a
continuous relationship of respect, love and

l.

138

affection between the minor children and the other
party, cooperating fully with the other in
implementing a relationship with the minor
children that will give the minor children a
maximum feeling of security.
- 23 n.
Each
party shall set aside any issues and feelings of
mutual antipathy and discord toward the other for
the sake of cooperating in the raising of the minor
children.
m.
Father
and Mother shall not do anything which may
demean the other or estrange the other from the
minor children's love and affection or injure the
minor children's opinion of the other, or which may
hamper the free and natural development of the
minor children's love of the other party interfere in
any way with the reasonable and proper
companionship between the minor children and the
other party.
The
primary consideration for the custody arrangement
shall be the minor children's welfare rather than
the desires or conveniences ofPetitioner and
Respondent.

IV.

139

D. Parenting Rules:
(a). Telephone Rules. Father and Mother may have
reasonable telephone contact with the children
while the children are with the other parent.
Telephone calls may take place at any time between
the hours of 10:00 a.m. and 8:00 p.m. The parent
seeking telephone contact with the children will
first text the other parent, and inform him or her
that he or she would like to talk to the children. The
other parent shall have the children return the
parent's call at the children's soonest availability.
Neither parent shall block the other parent's
number from their cell phone. Mother may
supervise Father 's telephone contact with the
minor children.
(b). Contact between Parents. The parents shall
communicate with each other directly and shall not
use the children as messengers. The parents shall
communicate via e-mail only. Mother's preferred email is
and Father 's preferred e-mail is
frawleylawfirmllc@gmail.com. If either parent
changes his or her e-mail address, that parent shall
notify the other within 24 hours of said change. If
there is a failure to provide said notice, e-mails sent
to the above e-mail addresses shall be deemed
delivered successfully. The parties may only
communicate through telephone in the case of an
emergency. The parents shall limit their
communication to topics related to the children,
140

such as exchanges, the children's health, and travel
with the children. The parents agree to
communicate with each other in a polite and
respectful manner. The parents agree that neither
party shall threaten, stalk, molest, or disturb the
peace of the other.
(c). Cut Down Rule. Parents shall avoid degrading
language about the other parent in the presence of
the children. Neither parent shall by verbal or non­
verbal communication say or do anything which
might tend to derogate from the love and respect
which the children would otherwise naturally have
for the other parent, (d). Safety Rule. Parents shall
not allow their children to be in the presence of
known child abusers or persons accused of child
abuse during the process of such an investigation by
the police, Prosecuting Attorney's Office, or agency
designated by law to investigate the same. Parents
shall not allow their children to use or operate
dangerous machinery, equipment, guns, or to place
their children in physical or emotional danger. This
also includes using drugs or alcohol while driving,
using illegal drugs in the presence of their children
or alcohol to excess in the presence of

their children. The parents shall not smoke in the
presence of their children if the children suffer from
asthma or other respiratory illness.
141

$:■

i.

*
*

(e). School Rule. The children should not be taken
out of school by any individual without the
knowledge and written permission of Mother.
Father shall not have Parenting Time with the
children while they are in school as school staff is
not an approved supervisor. Mother shall provide
Father with information sent home or supplied by
the school such as the calendar of school events,
grade cards, notice of parent teacher conferences,
etc.

i

'■I

C). Children 's Personal Property. When parents
give a safe and age appropriate toy or gift to their
children, the children should be allowed to
keep/use/enjoy and take that toy or gift to either
parent's home.

.'V,
;■)

(g). Third Parties. The parents understand that
they are responsible for parenting their children.
Significant others, step-parents and grandparents
shall not interfere with or attempt to control the
parenting rights ofeither parent.
END PARENTING PLAN
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED in the event either party
relocates their principal residence, then you are
advised pursuant to Mo. Rev. Stat. 452.377.1 1. as
follows;
142

;

■i

1

Absent exigent circumstances as determined by a
court with jurisdiction, the parties to
this action are ordered to notify in writing by
certified mail, return receipt requested, and at least
sixty (60) days prior to the proposed relocation, each
party to this action of any proposed relocation of the
principal residence of the children, including the
following information:
The
a)
intended new residence, including the specific
address and mailing address, if known, and if not
known, the city;
The
b)
home telephone number of the new residence, if
known;
The
c)
date of the intended move or proposed relocation;
A brief
d)
statement of the specific reasons for the proposed
relocation of the children! and
A
proposal for a revised schedule of custody or
Parenting Time with the children.

e)

143

The obligation to provide this information to each
party continues as long as either party by virtue of
this order is entitled to custody of the children
covered by this order. The failure to obey the order
of the court regarding the proposed relocation may
result in further litigation to enforce such order,
including contempt of court. In addition, the failure
to notify a party of a relocation of the children may
be considered in a proceeding to modify custody or
Parenting Time with the children. Reasonable costs
and attorney fees may be assessed against the party
for failure to give the required notice.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED by the Court that the Sheriff or any
other law enforcement officer shall enforce the
rights of custody and Parenting Time ordered
herein. Such Sheriff or law enforcement officer shall
not remove a child from a person who has actual
physical custody of the child unless such sheriff or
officer is shown a court order or judgment which
clearly and convincingly verifies that such person is
not entitled to the actual physical custody of the
child, and there are not other exigent circumstances
that would give the sheriff or officer reasonable
suspicion to believe that the child would be harmed
or that the court order presented to the sheriff or
officer may not be valid.
•* /

IT IS FURTHER ORDERED, ADJUDGED AND
DECREED in the event of
144

noncompliance with this order, the aggrieved party .
may file a verified motion for contempt. If custody,
Parenting Time, or third-party custody is denied or
interfered with by a parent or third party without
good cause, the aggrieved person may file a family
access motion with the court stating the specific
facts that constitute a violation of the custody
provisions of the judgment of dissolution, legal
separation, or judgment of paternity. The circuit
clerk will provide the aggrieved party with an
explanation of the procedures for filing a family
access motion and a simple form for use in filing the
family access motion. A family access motion does
not require the assistance of legal counsel to
prepare and file.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED the presumed child support amount
pursuant to Mo. Rev. Stat. 452.340.8, Supreme
Court Rule 88.01 and as calculated by Form 14 is
$554.00. This amount is not found to be unjust and
inappropriate. Respondent shall pay to Petitioner
via income withholding order, to the Family
Support Payment Center as Trustee for Petitioner,
the sum of $554.00 per month beginning January 1,
2019, and continuing on the first day of each month
until further order of this Court.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED Petitioner shall provide medical
coverage for the minor children either through her
145

employer or that of her fiance, if available to him.
Respondent may provide additional health
insurance coverage for the minor children at issue
in this case, but he is not ordered by this Court to
do so and as such, will not receive a credit on the
Form 14 for any health insurance expense. Further,
the unpaid and/or uncovered portion of the medical,
dental, optical, orthodontic, endodontic, psychiatric,
psychological, prescription and all other healthcare
expenses will be equally shared between the
parties, as detailed in the Parenting Plan set forth
in this Modification Judgment.

IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that the
shall
equally share the extracurricular activity expenses
of the minor children as detailed in the Parenting
Plan set forth in this Modification Judgment.
Petitioner shall decide which activities the children
participate in and shall promptly provide that
information to Respondent.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED Respondent is found to be in contempt
of the Judgment and Decree of Dissolution of
Marriage for willfully and maliciously failing to
reimburse Petitioner for uninsured medical
expenses and extracurricular expenses in the
amount of $6,352.03. Respondent shall purge
himself of this contempt by mailing a payment of
146

$200.00 per month, post-marked on or before on the
1 5 th day of each month, beginning January 15,
2019, to Petitioner until the amount in full has been
paid. Failure by Respondent to make said payments
to Petitioner could result in incarceration in the
Platte County Detention Center until such time as
he purges himself of this contempt.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that the Guardian ad Litem shall be
compensated for her services in the total amount of
$10,959.62. Respondent shall pay 2/3 of said
amount ($7,306.34) directly to the Guardian ad
Litem and Petitioner shall pay 1/3 of said amount
directly to the Guardian ad Litem, which after
giving credit for the $1,250.00 Petitioner has
already deposited with the Court, results in a
remaining payment amount of $2,403.28. Despite
the division of responsibility set forth above on said
obligation, the Guardian ad Litem is given a
Judgment in the amount of $10,959.62 jointly and
severally against both parties for the full amount
and each party may pursue contribution from the
other party for amounts paid above their percentage
obligation amount set forth above.
IT IS FURTHER ORDERED ADJUDGED AND
DECREED that the Court

147

Administrator's Office release all funds held on
deposit for the Guardian ad Litem's fee ($1,250.00)
directly to Guardian ad Litem Jennifer Fain.
IT IS FURTHER ORDERED ADJUDGED AND
DECREED this Judgment for Guardian Ad Litem
fees is in the nature of support of a minor child
under Section 523 (a)(5) &
(15) of the Bankruptcy Code as amended, and under
Mo. Rev. Stat. 314.430 and Mo. Rev. Stat. 513.440
and shall not be dischargeable. The Guardian Ad
Litem is authorized to pay out to herself all sums
held on deposit for said fees.

IT IS FURTHER ORDERED, ADJUDGED AND
DECREED by the Court that if
either party brings an action for failure to perform
any of the obligations imposed by this Judgment, or
for the enforcement or clarification of this
Judgment, the prevailing party in such action may
recover that party's attorney fees and litigation
costs reasonably expended in prosecuting or
defending the action. However, no attorney fees
shall be recovered by a party filing an action unless
that party seeking to recover said attorney fees and
costs shall have mailed to the breaching party
written notice of the alleged failure to perform and
148

said alleged failure was not cured within ten (10)
days after the date of mailing said notice by .certified
mail to the alleged breaching party's business or
residence address. But no such notice is necessary
for enforcement purposes for failure to pay periodic
child support as set forth herein directly or in any
parenting plan incorporated herein. No fees or costs
authorized by this paragraph shall be recovered
except as determined and awarded by the court in
an action brought for enforcement, breach, or
clarification of this Agreement.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED by the Court that the
costs of this action be assessed against Petitioner.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED by the Court that
Petitioner and her attorney, Stephanie L. Schutt, is
granted a judgment against Respondent in the
amount of $10,000.00.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED by the Court that Respondent shall pay
his own attorney fees and costs.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED all other motions not directly addressed
herein are deemed denied.
149

IT IS FURTHER ORDERED, ADJUDGED AND
DECREED provisions of the
parties' Judgment Decree of Dissolution of
Marriage, entered by this Court on March 7, 2013,
not modified herein, shall remain the order of this
Court.
DATE
HONORABLE W. ANN HANSBROUGH

Supreme Court of
JJlts&ourt tn banc
SC98398
WD82442
January Session, 2020

Victoria L. Frawley,
Respondent,
vs. (TRANSFER)

Matthew J. Frawley,
150

Appellant.

Now at this day, on consideration of the Appellant’s
application to transfer the aboveentitled cause from the
Missouri Court of Appeals, Western District, it is ordered
that the said application be, and the same is hereby
denied.

STATE OF MISSOURI-Sct.

I, Betsy AuBuchon, Clerk of the Supreme Court of the
State of Missouri, certify that the foregoing is a full, true
and complete transcript of the judgment of said Supreme
Court, entered of record at the January Session, 2020, and
on the 28th day of April* 2020, in the above-entitled cause.

151

V-.

■i'

IN TESTIMONY WHEREOF, I have hereunto set my
hand and the seal of said Court, at my office in the City
of Jefferson, this 28th day of April, 2020.

* \

V
Deputy Clerk
1

I.

152

i

*
.■I

n

A

I
i

-s

A
1
A
1
A;

